No.

3fn

Supreme Court of tfje QHnfteiJ States

VlDYA SAGAR, PH.D.,
Petitioner,
V.

Steven T. Mnuchin,
Secretary of the Treasury,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit
APPENDIX

Vidya Sagar, Ph.D.
Plaintiff/Petitioner, Pro Se
2408 Lewisdale Drive
Hyattsville, MD 20783-2608
Email: vsagar2078@comcast.net
vidya.sagar.pmp@gmail.com
Phone: (301) 422 1468 (Land Line)
(240) 535 2534 (Cell)
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800)847-0477

App. 1

United States Court of Appeals
For The District of Columbia Circuit
September Term, 2018
No. 18-5183
l:14-cv-01058-RDM
Filed On: January 29, 2019
Vidya Sagar, Ph.D.,
Appellant
v.
Steven T. Mnuchin, Secretary of the Treasury,
Appellee
BEFORE: Henderson,
Circuit Judges

Rogers,

and Wilkins,

ORDER
Upon consideration of the motion forsummary affirmance and the opposition thereto; and
appellant’s motion to extend time for its reply in
support of the motion for summary affirmance, the
opposition thereto, and the lodged reply, it is
ORDERED that the motion to extend time
be granted. The Clerk is directed to file the lodged
reply. It is
FURTHER ORDERED that the motion for
summary affirmance be granted. The merits of the
parties' positions are so clear as to warrant summary
action. See Taxpayers Watchdog. Inc, v. Stanley. 819

App. 2

F.2d 294, 297 (D.C. Cir. 1987) (per curiam).
Appellant’s conclusory assertions that he was
prejudiced by certain discovery rulings made by the
district court do not show that the court abused its
discretion. U.S. ex rel. Folliard v. Gov't Acquisitions.
Inc.. 764 F.3d 19, 26 (D.C. Cir. 2014) (“Under the
abuse of discretion standard that governs discovery
disputes, a trial court’s authority is at its zenith.”).
The district court correctly determined that it
lacked jurisdiction over appellant’s Whistleblower
Protection Act (WPA) claims. See Stella v. Mineta.
284 F.3d 135, 142 (D.C. Cir. 2002) (“Under no
circumstances does the WPA grant the District
Court jurisdiction to entertain a whistleblower cause
of action brought directly before it in the first
instance.”). The district court likewise lacked
jurisdiction over appellant’s Administrative
Procedure Act (APA) claim because the Civil Service
Reform Act’s (CSRA) “comprehensive employment
scheme preempts judicial review under the more
general APA even when that scheme provides no
judicial relief.” Filebark v. U.S. Dept, of Transp.. 555
F.3d 1009, 1010 (D.C. Cir. 2009). Nor can the CSRA
be circumvented by coupling an APA claim “with the
general federal-question jurisdictional provision, 28
U.S.C. § 1331.” Lacson v. DHS. 726 F.3d 170, 175
(D.C. Cir. 2013). Moreover, this was not a “mixed
case” over which the district court had jurisdiction,
because such cases must include a claim appealable
to the Merit Systems Protection Board (MSPB), and
it is undisputed that appellant was a probationary
employee who could not have appealed his
termination to the MSPB. See Wren v. Merit
Systems Protection Bd., 681 F.2d 867, 871 (D.C. Cir.
1982). Finally, appellant’s argument that the district
court could review his termination as an ultra vires

App. 3

act is unavailing, because a party may not obtain
jurisdiction by repackaging a challenge to the merits
of an agency’s determination as a claim that the
agency was acting beyond its authority. See Fla.
Health Scis. Ctr., Inc, v. Sec’v of Health & Human
Servs.. 830 F.3d 515, 522-23 (D.C. Cir. 2016).
With respect to the district court’s grant of
summary judgment in favor of appellee as to
appellant’s claims under the Age Discrimination in
Employment Act (ADEA), appellant does not point to
record evidence that presents a material issue of
disputed fact as to appellee’s stated reason. See
Baloch v. Kempthorne, 550 F.3d 1191, 1197, 1200
(D.C. Cir. 2008); see also Johnson v. Perez. 823 F.3d
701, 707 (D.C. Cir. 2016) (employee’s assertions in a
Title VII case that “he performed well at his job and
that he did not have an argumentative demeanor”
did not call into question the factual basis for the
employer’s conclusion that his performance was
inadequate); Wilson v. Cox. 753 F.3d 244, 247 (D.C.
Cir. 2014) (“We generally apply the same approach
in ADEA [discrimination] cases ... as we do in Title
VII cases.”).
Finally, to the extent appellant raises
conclusory or skeletal arguments in opposition to the
motion for summary affirmance, such as his
argument that the district court failed to consider
unspecified “agency principles,” this court need not
address these undeveloped arguments. See Davis v.
Pension Benefit Guar. Corn.. 734 F.3d 1161, 1166-67
(D.C. Cir. 2013).
Pursuant to D.C. Circuit Rule 36, this
disposition will not be published. The Clerk is
directed to withhold issuance of the mandate herein
until seven days after resolution of any timely

App. 4

petition for rehearing or petition for rehearing en
banc. See Fed. R. App. P. 41(b); D.C. Cir. Rule 41.
Per Curiam

App. 5

United States Court of Appeals
For The District of Columbia Circuit
No. 18-5183

September Term, 2018
l:14-cv-01058-RDM
Filed On: April 26, 2019

Vidya Sagar, Ph.D.,
Appellant
v.
Steven T. Mnuchin, Secretary of the Treasury,
Appellee

BEFORE: Henderson, Rogers, and Wilkins,
Circuit Judges
ORDER
Upon consideration of the petition for rehearing, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken Meadows Deputy Clerk

App. 6

United States Court of Appeals
For The District of Columbia Circuit
September Term, 2018
l:14-cv-01058-RDM
Filed On: April 26, 2019

No. 18-5183

Vidya Sagar, Ph.D.,
Appellant
v.

Steven T. Mnuchin, Secretary of the Treasury,
Appellee

BEFORE: Garland, Chief Judge, and Henderson,
Rogers, Tatel, Griffith, Srinivasan, Millett, Pillard,
Wilkins, Katsas, and Rao*, Circuit Judges
ORDER

Upon consideration of the petition for
rehearing en banc, and the absence of a request by
any member of the court for a vote, it is

* Circuit Judge Rao did not participate in this
matter.

App. 7

ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken Meadows Deputy Clerk

App. 8

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

VIDYA SAGAR,
Plaintiff,
Civil Action No. 14-1058 (RDM)
v.
JACOB LEW, Secretary of the Treasury,
Defendant.
MEMORANDUM OPINION AND ORDER
Plaintiff Vidya Sagar, proceeding pro se, was
terminated from his position at the Department of
Treasury during his one-year period of probationary
employment. He now sues that Department for
violations of the Age Discrimination in Employment
Act (“ADEA”); violations of the federal
Whistleblower Protection Act (“WPA”); and
violations of ethical rules and agency regulations,
which he asks this Court to enforce under the
general judicial review provisions of the
Administrative Procedure Act (“APA”). On the
Department’s motion, the Court will dismiss Sagar’s
WPA claim and the APA claims for lack of subject
matter jurisdiction, leaving only Sagar’s claims
under the ADEA. Sagar’s cross-motion for partial
summary judgment on the APA claims, accordingly,
will be denied.

App. 9

I.

BACKGROUND

For purposes of the Department’s motion to
dismiss, the following allegations in Sagar’s
complaint are taken as true.1 See, e.g., Hishon u.
King & Spalding, 467 U.S. 69, 73 (1984).

1 All references and citations to the complaint refer to the
amended complaint found at Dkt. 41.

App. 10

On December 20, 2010, Sagar began a oneyear probationary term as an “IT Specialist” at the
Department of the Treasury. Compl. If 7; see Dkt. 41
at 25 (Compl. Ex. 2). He was sixty- three years old at
the time. See Compl. If 54. This position carried a
Grade 15 on the federal government’s General
Schedule (“GS-15”) and came with a salary in excess
of $123,000. Id. If 7. Sagar holds a Ph.D. and brought
a wealth of experience to his new job, including
“extensive experience in information technology”
with the consulting divisions of PeopleSoft and
Oracle. Id. If If 4-5. In these positions, he consulted
with more than a dozen prominent corporations,
including CitiGroup, MetLife, and JPMorgan Chase.

Id. 1f 5.
After joining Treasury, Sagar worked on the
Premium Assistance Tax Credit project (“PTC”), a
part of the wider effort to implement the Patient
Protection and Affordable Care Act. Id. If 8. Sagar
had a number of managers in this role but did not
manage anyone himself. Id. K1f 9-10. He alleges that
he “took initiative” in creating a “strategic team at
PTC.” Id. If 16. He also alleges that during his time
on the PTC project, he worked on several significant
assignments, helped develop new members to the
team, saved the project money with his ideas, and
received positive feedback from managers. Id. 1f1f 1733.
Sagar was particularly dissatisfied with at
least two of his managers—Matthew Brady and
Peter Gianokos. Id. If If 10, 12, 36-42. He alleges that
both men were “age conscious” and “made comments
about Sagar’s age on multiple occasions.” Id. 1f 43.
These comments included questions about how long
Sagar had been employed, questions about his exact

App. 11

age, comments about how old he looked, and
discussions about retirement (although Sagar seems
to allege that only some of these comments or
questions came directly from Brady and Gianokos
and others came from fellow employees acting as
their “surrogates”). Id. f 43-47. Sagar also alleges
that his managers “[w]asted time [with] futile
activities,” such as spending eight-to-ten weeks
training new employees. Id. 1 73.
Sagar received a poor annual review from
Brady in September 2011, and he met with Gianokos
to discuss the review the following week. Id. f 62.
Gianokos said he would not overrule Brady. Id.
Sagar asked if a higher level official could review the
decision, but Brady and Gianokos declined. Id. 1} 63.
On October 27, 2011, Brady and Gianokos told Sagar
that they were firing him for “performance and
behavior issues” and gave him an unsigned letter
explaining the decision. Id. f 67; see Dkt. 41 at 23
(Compl. Ex. 1). On November 2, 2011, Gianokos gave
Sagar a copy of a more-detailed termination letter,
which was also dated October 27, 2011. Compl. f 70.
That letter described five instances in which Sagar
had “failed to meet the expectations of [his] position
and/or displayed unprofessional behavior.” Dkt. 41
at 25 (Compl. Ex. 2). It further explained that Sagar
had been “counseled regarding the[se] deficiencies”
but that “there ha[d] been no improvement.” Compl.
If 70. Sagar alleges that Brady was planning to fire
him even before he joined the PTC team and that he
violated Department ethical rules and principles in
the process. Id. Iff 56-58. Sagar was later replaced
by a younger employee who was then forty-seven
years old, and whom Sagar says was not qualified for
a GS-15 position. Id. f 52.

App. 12

Sagar challenged his termination with
Treasury’s Equal Employment Opportunity office.
Id. f 82. He alleges that, at some point during this
process, the Department admitted that Sagar had
stated a “prima facie case of age discrimination”
because a younger GS-15 in his office was not fired
and because Sagar had been replaced by a younger
employee. Id. 1f 85. Sagar alleges that he properly
exhausted his age discrimination claim before filing
suit. Id. If 88.
Sagar then filed suit in this Court. The
complaint includes a purportedly non-exhaustive list
of “bas[e]s” for the lawsuit. See Compl. f 90. Based
on that list, the entirety of the complaint, and
Sagar’s descriptions of the complaint in his
opposition brief, Dkt. 56 at 1, the Court construes
Sagar’s claims as follows:
Count One alleges “[a]ge discrimination” in
violation of the ADEA, 29 U.S.C. § 621, et seq.
Counts Two and Three allege that Treasury violated
ethical rules and regulations related to Sagar’s
termination, which Sagar seeks to challenge under
the Administrative Procedure Act, 5 U.S.C. § 701 et
seq. Count Four alleges “[r]etaliation/reprisal,”
which the Court construes as an ADEA retaliation
claim under 29 U.S.C. § 623(d). Count Five alleges
“[w]histleblowing” in violation of the federal
Whistleblower Protection Act, 5 U.S.C. § 2302(b)(8).
Finally, Count Six alleges “[h]arassment.” The Court
will construe this as an ADEA hostile work
environment claim. See Dediol v. Best Chevrolet,
Inc., 655 F.3d 435, 440-41 (5th Cir. 2011); Ware v.
Hyatt Corp, 80 F. Supp. 3d 218, 226-27 & n.5 (D.D.C.
2015).
Now pending before the Court are the

App. 13

Department’s motion to dismiss, Dkt. 55, and
Sagar’s cross-motion for partial summary judgment
as to Counts Two and Three, Dkt. 64.
II.

STANDARD OF REVIEW
Two legal standards govern the Court’s
consideration of the pending motions.
First, the Department has moved to dismiss
under Rules 12(b)(1) and 12(b)(6) of the Federal
Rules of Civil Procedure, although the 12(b)(6)
portion has been withdrawn. See Dkt. 58 at 2. A
motion to dismiss under Rule 12(b)(1) challenges the
Court's jurisdiction to hear the claim, and may raise
a “facial” or “factual” challenge to the Court's
jurisdiction. A facial challenge asks whether the
plaintiff has pleaded facts sufficient to establish the
court’s jurisdiction, while a factual challenge asks
the court to “consider the complaint supplemented
by undisputed facts evidenced in the record, or the
complaint supplemented by undisputed facts plus
the court's resolution of disputed facts.” Herbert v.
Nat’l Acad. ofScis., 974 F.2d 192, 197 (D.C. Cir.
1992). In other words, a facial challenge is confined
to the four corners of the complaint, while a factual
challenge permits the court to look beyond the
complaint to satisfy itself that it has jurisdiction to
hear the suit. Whether the motion to dismiss is facial
or factual, the plaintiff bears the burden of
establishing by a preponderance of the evidence that
the court has subject- matter jurisdiction. See Lujan
v. Defs. of Wildlife, 504 U.S. 555, 561 (1992).
In addition, Sagar has cross-moved for partial
summary judgment. Summary judgment is
appropriately granted “if the movant shows that
there is no genuine dispute as to any material fact

App. 14

and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a); see Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 247-48 (1986); Holcomb v.
Powell, 433 F.3d 889, 895-96 (D.C. Cir. 2006). A fact
is “material” if it is capable of affecting the outcome
of the litigation. Liberty Lobby, 477 U.S. at 248;
Holcomb, 433 F.3d at 895. A dispute is “genuine” if
the evidence is such that a reasonable jury could
return a verdict for the nonmoving party. See Scott u.
Harris, 550 U.S. 372, 380 (2007); Liberty Lobby, All
U.S. at 248; Holcomb, 433 F.3d at 895. “A party
asserting that a fact cannot be or is genuinely
disputed must support the assertion by . . . citing to
particular parts of materials in the record . . . .” Fed.
R. Civ. P. 56(c)(1)(A).
The party seeking summary judgment “bears
the heavy burden of establishing that the merits of
his case are so clear that expedited action is
justified.” Taxpayers Watchdog, Inc. v. Stanley, 819
F.2d 294, 297 (D.C. Cir. 1987). When a motion for
summary judgment is under consideration, “the
evidence of the non-movant is to be believed, and all
justifiable inferences are to be drawn in his favor.”
Liberty Lobby, All U.S. at 255; see also Mastro v.
Pepco, 447 F.3d 843, 850 (D.C. Cir. 2006). The non­
movant's opposition, however, must consist of more
than allegations or denials and must be supported by
affidavits, declarations, or other competent evidence,
setting forth specific facts showing that there is a
genuine issue for trial. Fed. R. Civ.
P. 56(e); Celotex Corp. v. Catrett, All U.S. 317, 324
(1986). The non-movant must provide evidence that
would permit a reasonable jury to find in its favor.
See Laningham v. U.S. Navy, 813 F.2d 1236, 1241
(D.C. Cir. 1987). If his evidence is “merely colorable”

App. 15

or “not significantly probative,” summary judgment
may be granted. Liberty Lobby, 477 U.S. at 249-50.
III.

ANALYSIS
The Department originally moved to dismiss
some counts of the complaint for lack of subjectmatter jurisdiction under Rule 12(b)(1) and others
for failure to state a claim under Rule 12(b)(6). See
Dkt. 55. But to avoid the prospect that its motion
might be converted to one for summary judgment—
thereby opening the door to discovery—the
Department stated in its reply that it was
withdrawing its arguments for dismissal under
12(b)(6). Dkt. 58 at 2. The Court will therefore focus
on the Department’s jurisdictional arguments and
Sagar’s cross-motion for summary judgment.
Because Sagar is proceeding pro se, the Court will
“liberally construe Q” the complaint and hold it to
“less stringent standards than formal pleadings
drafted by lawyers.” Estelle v. Gamble, 429 U.S. 97,
106 (1976).
A.
The Department’s Jurisdictional
Arguments
1. Sagar’s Whistleblower Claim
The fifth count of Sagar’s complaint alleges
violations of the federal Whistleblower Protection
Act, codified in relevant part at 5 U.S.C. § 2302(b)(8).
See Compl. 90; Dkt. 56 at 1. The Department
moves to dismiss this claim for lack of subject-matter
jurisdiction on the ground that Sagar never
presented his whistleblower claim to the Office of
Special Counsel (“OSC”), and thus failed to exhaust
his administrative remedies. See Dkt. 55 at 8-9.
Sagar responds that

App. 16

OSC review was not required because this is a
“mixed” case. See Dkt. 56 at 38-39. As explained
below, the Court concludes that Sagar’s probationary
status means this case is not “mixed” and that the
Court therefore lacks jurisdiction over his WPA
claim.
In the default case, a federal employee
alleging WPA violations must first present that
claim to the OSC, which investigates the matter. 5
U.S.C. § 1214; Stella v. Mineta, 284 F.3d 135, 142
(D.C. Cir. 2002). The OSC may then petition the
Merit Systems Protection Board (“MSPB”) on the
employee’s behalf, or, if the OSC finds no
wrongdoing, the employee may file with the MSPB
himself. Stella, 284 F.3d at 142 (citing 5 U.S.C. §§
1214(a)(3), 1221). The MSPB’s decision is then
appealable to the Federal Circuit. Id.; 5 U.S.C. §
7703(b)(1)(A). Under this default procedure, the case
at no point goes before a district court, and the
district court at no point has jurisdiction to hear the
WPA claim. Stella, 284 F.3d at 142; Bourdon v.
Mabus, No. 11-5302, 2012 WL 1155737 (D.C. Cir.
Mar. 28, 2012) (per curiam).
But the district court does have jurisdiction
over a WPA claim when it is brought as part of a
“mixed case.” Stella, 284 F.3d at 143-44. A case is
“mixed” if (1) the employee “has been affected by an
action which [he] may appeal to the [MSPB],”
including, potentially, an agency reprisal prohibited
by the WPA; and (2) the employee alleges that the
action was also motivated by certain types of
unlawful discrimination, including discrimination
prohibited by the ADEA. 5 U.S.C. § 7702(a)(1);
Butler u. West, 164 F.3d 634, 638 (D.C. Cir. 1999). An
employee bringing a mixed case has a choice: he may

App. 17

file a “mixed case appeal” of the agency’s action
directly with the MSPB, or, in the alternative, he
may file a “mixed case complaint” with the agency’s
Equal Employment Opportunity (EEO) office. §
7702(a)(1) & (2); Butler, 164 F.3d at 638; 29 C.F.R.
§ 1614.302(b). Because the “mixed case appeal”
option exists, an employee with a mixed case need
not first submit his claim to the OSC. See 5 U.S.C. §
1214(a)(3). Once the MSPB or the agency’s EEO
office renders a decision or enough time passes, the
employee may bring his “mixed” case in district
court. Butler, 164 F.3d at 638-39 (summarizing
applicable procedures).
This is not a mixed case, however. Sagar’s
case qualifies as “mixed” only if he “has been affected
by an action which [he] may appeal to the [MSPB] ” §
7702(a)(1)(A) (emphasis added); Abou-Hussein v.
Mabus, 953 F. Supp. 2d 251, 260 (D.D.C 2013);
Greenhouse v. Geren, 574 F. Supp. 2d 57, 66-67
(D.D.C. 2008); see also Cruz v. Dep’t of Navy, 934
F.2d 1240, 1246 (Fed. Cir. 1991). But, as Sagar
acknowledges in his opposition brief, he “was
terminated during probation and has no access to
[the] MSPB.” Dkt. 56 at 38. Indeed, “the appeal
rights of a probationary employee are extremely
limited.” Mastriano v. FAA, 714 F.2d 1152, 1155
(Fed. Cir. 1983). The MSPB’s appellate jurisdiction
is set forth in 5 C.F.R. § 1201.3, and, of the three
types of appeals potentially relevant to the facts
Sagar alleges, none are available to probationary
employees with less than one year of service. First,
the MSPB has jurisdiction over major “adverse
actions”—including removal—as defined in chapter
75 of the Civil Service Reform Act (CSRA). 5 C.F.R. §
1201.3(a)(1); accord 5 U.S.C. § 7513(d). But, as a

App. 18

probationary employee with less than one year of
service, Sagar was not an “employee” within the
meaning of that statute, see 5 U.S.C. §§ 7501,
7511(a)(1), and thus had no statutory right to appeal
such actions to the MSPB, Wren v. Merit Sys. Prot.
Bd., 681 F.2d 867, 871 (D.C. Cir. 1982); accord
Shelton v. Dep’t of Air Force, 382 F.3d 1335, 1336-37
(Fed. Cir. 2004). Second, although regulations grant
the MSPB limited authority to hear a probationer’s
appeal of his termination, they apply only if “the
termination was motivated by partisan political
reasons or marital status, and/or . . . was based on a
pre-appointment reason.” 5 C.F.R. § 1201.3(a)(3); see
Mastriano, 714 F.2d at 1155. Sagar makes no such
allegations here. Third and finally, the MSPB has
jurisdiction over “[a]ctions based on unacceptable
performance” as defined in chapter 43 of the CSRA.
5 C.F.R. § 1201.3(a)(5); see 5 U.S.C. § 4303(e). But
these appeals, too, are not available to probationers
with less than one year of service. § 4303(f)(2).
Hence, Sagar has not been affected by an
action appealable to the MSPB, and “without an
action appealable to the MSPB, this Court has no
jurisdiction to hear Plaintiffs WPA claims.”
Greenhouse, 574 F. Supp. 2d at 67. The Court,
accordingly, will dismiss Sagar’s WPA claims for
lack of subject matter jurisdiction.
2. Sagar’s APA Claims
The Department also moves to dismiss
Sagar’s “APA claims” for lack of jurisdiction on the
grounds that the ADEA represents an adequate
alternative remedy, rendering the APA’s judicial
review provisions inapplicable. Dkt. 55 at 9-10
(citing 5 U.S.C. § 704). Sagar’s opposition clarifies
that the “APA claims” at issue are Counts Two and

App. 19

Three, which allege that the Department violated
personnel rules in the course of Sagar’s termination.
See Dkt. 56 at 1. Specifically, Count Two alleges
“Violation of Department and Federal ethical rules
and processes in Plaintiffs wrongful annual
assessment and termination,” and Count Three
alleges “illegal termination under federal rules
including but not limited to 5 C.F.R. § 315.804
[which governs the termination of probationers for
unsatisfactory performance or conduct].” Compl.
1190.
The Civil Service Reform Act (“CSRA”),
however, provides the exclusive remedy for an
agency’s failure to comply with federal personnel
laws. See Filebark v. U.S. Dep’t of Transp., 555 F.3d
1009, 1010 (D.C. Cir. 2009). “[T]he CSRA is
comprehensive and exclusive. Federal employees
may not circumvent the Act’s requirements and
limitations by resorting to the catchall APA to
challenge agency employment actions.” Grosdidier v.
Chairman, Broad. Bd. of
Governors, 560 F.3d 495, 497 (D.C. Cir. 2009). As
such, the APA provides no cause of action under
which Sagar can pursue Counts Two and Three of
his complaint.
This limitation, moreover, is jurisdictional, in
that it derives from a limit in the United States’s
waiver of sovereign immunity. Fornaro v. James, 416
F.3d 63, 66 (D.C. Cir. 2005); see also Trudeau v.
FTC, 456 F.3d 178, 185 (D.C. Cir. 2006). The waiver
of sovereign immunity in the APA contains the
following proviso: “Nothing herein . . . confers
authority to grant relief if any other statute that
grants consent to suit expressly or impliedly forbids
the relief which is sought.” 5 U.S.C. § 702. This

App. 20

language “excludes from [the APA’s] waiver of
sovereign immunity . . . claims seeking relief
expressly or impliedly forbidden by another statute.”
Fornaro, 416 F.3d at 66 (quoting Transohio Savings
Bank v. Dir., Office of Thrift Supervision, 967 F.2d
598, 607 (D.C. Cir. 1993)). And the CSRA, with one
exception, vests jurisdiction to review CSRA claims
exclusively in the Federal Circuit—not in the U.S.
district courts. Elgin v. Dep’t of Treasury, 132 S. Ct.
2126, 2133 (2012). Although district courts may
assert jurisdiction over CSRA claims properly
presented in “mixed cases,” id.; 5 U.S.C. §
7702(a)(1)(B), the Court has already concluded that
Sagar’s claim is not such a case. It follows that this
Court would have no jurisdiction to review Sagar’s
claims if they had been brought under the CSRA.
This Court thus has no jurisdiction to consider them
now.
The Court acknowledges that relief may not
have been available for Sagar under the CSRA,
given Sagar’s probationary status. But this fact does
not affect the Court’s analysis, which turns not on
the availability of an alternative remedy, but on
whether “any other statute that grants consent to
suit expressly or impliedly forbids the relief which is
sought.” 5 U.S.C. § 702. The CSRA is such a statute.
Grosdidier, 560 F.3d at 497. And the fact that the
CSRA largely excludes probationary employees
merely evinces Congress's intent not to allow
probationary employees to challenge their removal
in district court. See Davis, 681 F.3d at 384, 388
(declining to create a Bivens action for probationers
because Congress “deliberately . . . chose to limit the
beneficiaries of the CSRA’s remedial protections in
large part to nonprobationary employees”). It would

App. 21

be anomalous indeed to permit probationary
employees— whom Congress expressly left out of its
remedial scheme—to challenge their removal
directly in district court under the APA, while
requiring permanent employees—whom Congress
did include—to exhaust their CSRA remedies first.
See Harrison v. Bowen, 815 F.2d 1505, 1515 (D.C.
Cir. 1987). Thus, as the Court of Appeals has often
said, “what you get under the CSRA is what you
get.” Grosdidier, 560 F.3d at 497; Filebark, 555 F.3d
at 1010.
The Court, accordingly, will dismiss Counts
Two and Three of Sagar’s complaint for lack of
jurisdiction.
B.
Sagar’s Motion for Summary Judgment
Sagar has also brought his own motion for
summary judgment. See Dkt. 64. He seeks summary
judgment, however, only as to Counts Two and/or
Three of his complaint. See id. at 1; Compl. U 90.
That is how the motion is captioned, and the Court
confirmed at a status conference that this was the
scope of his motion for summary judgment. See July
1, 2016, Minute Order. The Court also noted in its
Minute Order following that hearing that this claim
was also subject to the Department’s motion to
dismiss. Id. Because the Court has now dismissed
Counts Two and Three of the complaint, Sagar’s
cross-motion for partial summary judgment will be
denied.
C.
The Department’s Remaining Arguments
The Department’s motion to dismiss Counts
Four and Six—alleging unlawful retaliation and a
hostile work environment under the ADEA—was
premised exclusively on the ground that
the complaint fails to state a claim for which relief

App. 22

can be granted. See Fed. R. Civ. P. 12(b)(6). Because
the Department has withdrawn the portion of its
motion pursuant to Rule 12(b)(6), Dkt. 58, the Court
will deny that portion of the motion as moot.
CONCLUSION
For the reasons stated above, the
Department’s motion to dismiss, Dkt. 55, is hereby
GRANTED in part and DENIED in part as moot.
Sagar’s motion for summary judgment, Dkt. 64, is
hereby DENIED.
SO ORDERED.
/s/ Randolph D. Moss
RANDOLPH D. MOSS
United States District Judge
Date: September 30, 2016.

App. 23

MINUTE ORDER March 31, 2018
MINUTE ORDER: Plaintiffs motion for summary
judgment, Dkt. 101, is hereby DENIED. Plaintiff has
failed to offer uncontroverted evidence that he was
terminated because of his age or in retaliation for
engaging in activity protected by the Age
Discrimination in Employment Act ("ADEA"), 28
U.S.C. § 621 et seq. This is not surprising: "Because
the typical Title VII [or ADEA] discrimination or
retaliation case is premised on the employer's
subjective motivations, the critical issue concerns
what was taking place in the subject individuals'
minds. Thus, if the individuals who allegedly took
the discriminatory/retaliatory acts deny that
discrimination or retaliation motivated their actions,
because no one else knows precisely what went on
inside their minds, it is difficult (if not impossible)
for there not to be a question of fact as to what
actually motivated them. Consequently, summary
judgment in favor of a plaintiff in a discrimination or
retaliation case is exceedingly rare." Thomas v.
Wash. Metro. Area Transit Auth., 907 F. Supp. 2d
144, 148-49 (D.D.C. 2012). This case "is no
exception." Id. at 149. Defendant has proffered
legitimate, nondiscriminatory, and nonretaliatory
reasons for his termination—namely, the Plaintiffs
conduct and performance-and it has supported
these asserted reasons with testimony provided
under penalty of perjury. See Vatel v. All. of
Auto. Mfrs., 627 F.3d 1245, 1246-47 (D.C. Cir. 2011);
Brady v. Office of Sergeant at Arms, 520 F.3d 490,
493 (D.C. Cir. 2008); Holcomb v. Powell, 433 F.3d
889, 896 (D.C. Cir. 2006). Although the Court still
needs to address Defendant's cross-motion for

App. 24

summary judgment, for present purposes it suffices
to conclude that Defendant's submissions are more
than sufficient to demonstrate that Plaintiff is not
entitled to summary judgment on his termination
and retaliation claims. For similar reasons,
moreover, the Court concludes that Plaintiff is not
entitled to summary judgment in his favor on his
hostile work environment claim. Like Plaintiffs
termination claim, that claim requires proof that
Defendant acted with age-based animus, and, like
his termination claim, he has failed to offer
uncontroverted evidence of such animus. See Bryant
v. Brownlee, 265 F. Supp. 2d 52, 63 (D.D.C. 2003). In
addition, Plaintiff has failed to present
uncontroverted evidence that he was subjected to
'"discriminatory intimidation, ridicule, and insult'
that is 'sufficiently severe or pervasive to alter the
conditions of [his] employment and create an
abusiveworkingenvironment.'Harris v. Forklift Sys.,
Inc.,510 U.S. 17, 21, 114 S.Ct. 367, 126 L.Ed.2d 295
(1993)(quoting Meritor Sav. Bank, FSB v. Vinson,
477 U.S. 57, 65, 67, 106 S.Ct. 2399, 91 L.Ed.2d 49
(1986));see also Barbour v. Browner, 181 F.3d 1342,
134748 (D.C. Cir.1999)." Baloch v. Kempthorne, 550
F.3d 1191, 1201 (D.C. Cir. 2008). Plaintiff,
accordingly, is not entitled to summary judgment on
any of his three remaining causes of action. Signed
by Judge Randolph D. Moss on 3/31/2018. (Icrdm2,)
Modified on 4/2/2018 to correct ECF error of
connecting words (kt). (Entered: 03/31/2018)

App. 25

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
VIDYA SAGAR,

Plaintiff,
Civil Action No. 14-1058 (RDM)
v.
STEVEN MNUCHIN, U.S. Secretary
of the Treasury,
Defendant.

MEMORANDUM OPINION
Plaintiff Vidya Sagar, proceeding pro se, was
hired for a one-year probationary period by the U.S.
Department of the Treasury and was terminated
shortly before the year expired. According to the
notice of termination, the Department decided to fire
Sagar based on his conduct and performance. Sagar,
however, sees it differently and alleges that he was
the victim of age discrimination. He brings this
action against the Department to challenge his
termination, asserting three claims under the Age
Discrimination in Employment Act of 1967
(“ADEA”), 29 U.S.C. § 621 etseq. He contends, first,
that he was terminated because of his age; second,
that the Department retaliated against him for
engaging in ADEA protected activity; and, third,
that he was subjected to a hostile work environment
because of his age. The matter is now before the

App. 26

Court on the Department’s motion for summary
judgment, Dkt. 104. For the reasons that follow, the
Court will GRANT the Department’s motion.

App. 27

I.

BACKGROUND

A.

Factual Background
On December 20, 2010, Sagar was hired by
the Internal Revenue Service (“IRS”) as an
Information Technology Specialist at the GS-15
paygrade. Dkt. 101-20 at 3-4 (Pl.’s SUMF
8, 11);
Dkt. 104-21 at 1 (Def.’s SUMF If 1). He was 62 years
old at the time. Dkt. 104-21 at 1 (Def.’s SUMF ^f 1).
Sagar was one of several Information Technology
Specialists hired to help the IRS implement the
Affordable Care Act. Id. (Def.’s SUMF f 1). He was
assigned to the Premium Tax Credit (“PTC”) project,
which was “build[ing] the application that calculates
[the] applicable tax credit for taxpayers.” Id. (Def.’s
SUMF ]j 2). Over the course of Sagar’s tenure at the
IRS, he had three managers. The first two are the
alleged discriminating officials: Matthew Brady, the
PTC Section Chief and Sagar’s direct manager, and
Peter Gianakos, the PTC Branch Chief and Sagar’s
second-level manager. Id. at 1-2 (Def.’s SUMF If 3);
Dkt. 64-6 at 6 (Interrogatory No. 11). The third,
Sagar’s third-level manager, was also the individual
who hired him: Gregory Barry, the Director of
Compliance and Document Matching, within the
IRS’s Affordable Care Act Program Management
Office. Dkt. 104-21 at 1, 4 (Def.’s SUMF tlf X 13).
Barry served as Sagar’s direct manager until
January or February 2011, when Gianakos became
the Chief of the PTC Branch and thus Sagar’s direct
manager. Dkt. 100-25 at 5-7 (Interrogatory No. 18).
In July 2011, Brady became the PTC Section Chief
and replaced Gianakos as Sagar’s direct manager.
Id. (Interrogatory No. 18). In March 2011, Sagar was

App. 28

“named the requirements lead for the PTC project.”
Dkt. 101-20 at 7 (PL’s SUMF 1 27). His “primary
responsibility” was to complete the Requirements
Plan, Dkt. 104-21 at 2-3 (Def.’s SUMF f 6), which
“documented] the activities, methods, and
techniques that w[ould] be used to perform and
support Requirements Development. .. and
Requirements Management. . . for the Premium Tax
Credit. . . Project,” Dkt. 85-8 at 7.
According to the Department and one of
Sagar’s colleagues, Jonathan Lin, Sagar “began to
have negative encounters” with Lin as early as
February 2011. Dkt. 104-21 at 2 (Def.’s SUMF 1f 4).
Although Lin did not immediately bring these
encounters to the attention of management, he kept
a running list of the episodes on his work computer.
Dkt. 104-6 at 7 (Lin Dep. 42:12-44:19); see id. at 2223 (Lin’s notes). According to those notes, during the
first incident, Sagar (who was not Lin’s supervisor)
“lectured” Lin “in the break room,” prompting Lin to
email Sagar to ask that they “treat each other with
professional courtesies.” Dkt. 104-6 at 22. During
subsequent incidents, Sagar purportedly told Lin
that he was “not a team player” and “hung up” the
telephone on him; interrupted Lin at a meeting with
harsh criticism implying that Lin had “confuse[d]”
two distinct concepts; and, at another meeting,
“threw down his pencil and started to lecture” Lin
for having interrupted him, only to then himself
interrupt another participant. Id. at 22-23. Finally,
Lin’s notes report that, at a meeting on May 23,
2011, Sagar “grabbed the [telephone] microphone
while [Lin] was speaking and moved it directly in
front of him” and, then, “after he finished [speaking],
he threw it across the table [in Lin’s] direction.”

App. 29

Id. at 22. As the parties describe it, the “microphone”
was an extension of a “spider” conference phone,
which was typically passed among participants
during conference calls. See Dkt. 104-6 at 16 (Lin
Dep. 112:4-16); Dkt. 104-21 at 2 (Def.’s SUMF f 4).
Sagar, for his part, disagrees with Lin’s account. He
asserts that he “treated Lin with respect and helped
Lin,” Dkt. 112-4 at 4 (Pl.’s Response to Def.’s SUMF);
that Lin was “uncooperative [and had an]
antagonistic attitude,” id. at 10; and that Lin “made
up [some of the] events [and] distorted facts ... to
get [an] outstanding [performance] rating,” id. at 9.
The parties also disagree about the quality of
Sagar’s work as a Technology Specialist. According
to Brady, when the template for the Requirements
Plan was changed, the Plan “needed to be updated to
follow the new template,” but Sagar failed to do so in
a timely manner. Dkt. 104-8 at 4 (Brady Dep. 35:2022). The Requirements Plan, in Brady’s view, “was
not that complicated,” and Sagar should have been
able to update it more quickly and without
assistance from others. Id. (Brady Dep. 37:20-22).
But, because Sagar did not do so, the Project
Manager, Walter Kirkland, needed to ask Sagar
“numerous times” when the Plan would be
completed, and Kirkland eventually “asked other
team members, including Matthew Sikowitz, the
only other GS-15 [Technology] Specialist in PTC[,]
[to assist] in completing the . . . Plan.” Dkt. 104-21 at
2-3 (Def.’s SUMF f 6, 8). Moreover, the Department
adds, Sagar once “called a meeting to discuss the . . .
Plan, but[,] because he was not prepared to go
forward, [Brady was forced to] cancelf] the meeting.”
Id. (Def.’s SUMF ^] 7). Sagar, again, paints a very

App. 30

different picture. He alleges that, even though “[t]he
project requirements were changing,” he successfully
completed the Requirements Plan in a timely
fashion. Dkt. 101-20 at 7 (Pl.’s SUMF 1}29); see id. at
7-8 (Pl.’s SUMF U 30-32); Dkt. 101 at 27 (“Sagar[’s]
three commitments . . . were completed [on] time,
[and his] performance exceeded [the relevant
standards].”); id. at 31 (“[E] vide nee . . . show[s] that
[Sagar] performed at an outstanding/exceptional
level. . . .”). He further asserts— albeit in arguably
contradictory terms—that he did so without
assistance from others. Dkt. 56-17 at 3 (“With team
input, the [Plan] was completed by me from start to
finish.”). As to the meeting that Brady claims to have
adjourned prematurely, Sagar contends that the
meeting was scheduled to last for “one hour” and
that the meeting, in fact, “lasted an hour.” Oral Arg.
Tr. (Rough at 12:12-13).
In September 2011, Brady turned his
attention to whether Sagar’s employment with the
Department should be terminated before the end of
his probationary period. According to Brady, he was
not only concerned about Sagar’s performance, but
had personally observed a number of “ongoing
behavioral issues” involving “antagonistic”
interactions with “other team members.” Dkt. 64-6
at 34; see id. at 33-35 (Brady’s narrative explanation,
which was submitted to the Labor Relations
Department, for why he recommended Sagar’s
dismissal). Brady noted, for example, that “[w]hen
someone wished to speak[,] [Sagar] would hold up
his hand and instruct [the person] in a firm voice not
to interrupt him and” would admonish that person
for “being rude,” and that, as a result, “many of his

App. 31

team members [would] not speak while in a meeting
with him due to intimidation and fear of being shut
down.” Dkt. 64-6 at 34. On other occasions, according
to Brady, when “confronted with” a disagreement,
Sagar would “say angrily[,] ‘I’ll shut up now,’ and
[would then] stop talking and . .. [would stop]
providing] input to the team.” Id. Around this time,
Brady asked other PTC staff whether they had had
difficulties working with Sagar, and Lin showed
Brady the notes that he had kept regarding Sagar’s
behavior. Dkt. 104-8 at 3 (Brady Dep. 33:14-19); Dkt.
104-6 at 7 (Lin Dep. 43:10-44:3).
Toward the end of September, Brady
completed Sagar’s annual evaluation, which referred
to these conduct issues. Brady wrote, for example,
that Sagar needed “to work more cooperatively with
peers to promote a team environment;” that he
“should . . . provide input even when there are
disagreements with team members and [should] not
shut down as [he has done] in meetings;” and that
his demeanor at meetings “contribute[d] to a hostile
environment.” Dkt. 104-9 at 7. The evaluation also
raised performance issues, noting that, “[a]s a senior
technical staff member, [Sagar] should be able to
complete assigned tasks without the intervention of
the manager and project manager[,] as was the case
for completing the Requirements Plan,” and that a
“meeting had to be shut[ ]down by the manager”
because Sagar’s presentation “was not ready to be
reviewed.” Id. Based on these stated concerns, the
review rated Sagar’s performance as “[minimally
[satisfactory.” Id. at 9.
On September 29, 2011, Brady met with

App. 32

Sagar to present the evaluation. Dkt. 104-1 at 3-4
(Brady Decl.
7). Although the exact timeline is not
crystal clear, at some point, Sagar “informed” Brady
and Gianakos that the evaluation “was not
consistent and was not true.” Dkt. 101-3 at 5. In
addition, Sagar asserts that he met with Gianakos
“around October 3, 2011” for “a few minutes” and
told him that “the review was incorrect, biased and
vindictive,” and that he met with Brady later that
same afternoon, who said he would “look into the
review on receipt of [Sagar’s] response.” Id. Sagar
sent his “response” to Brady on October 5, 2011. Id.
Among other things, his response asserted that
“there seems to be some misunderstanding since I
don’t interrupt the thought processes of others that
may be equally applicable or don’t know the
complete picture/context of the issue/discussion.”
Dkt. 56-17 at 2. Sagar’s response also suggested
that, going forward, he could improve workplace
relations by bringing his experience as a graduate
school teacher to bear in fostering the expression of
“diverse opinions.” Id. And, with respect to the
Requirements Plan, the response noted that there
was a “new template;” that “[t]he contents were still
getting revised as we proceeded to complete” the
Plan; that “we got it done relatively quickly;” and
that, “[w]ith team input, the [Plan] was completed by
me from start to finish.” Id. at 2-3.
Brady and Gianakos, nonetheless, decided to
“recommend termination during [Sagar’s]
probationary period.” Dkt. 104-21 at 4 (Def.’s SUMF
f 12). On October 27, 2011, Gianakos met with
Sagar and gave him the option of either resigning or
waiting to receive “a written proposal/termination
letter.” Dkt. 41 at 23. When Sagar declined to resign,

App. 33

Gianakos sent Sagar a letter, dated October 27,
2011, notifying Sagar of his decision to terminate his
employment with the IRS. Dkt. 104-4 at 2-4. The
letter noted that Sagar was a probationary employee
and that “[t]he purpose of the probationary period
was to allow [Sagar] the opportunity to demonstrate
the skills, performance, and conduct necessary for
continued employment with the Federal
Government.” Id. at 2. The letter then listed five
“incidents in which [Sagar] failed to meet the
expectations of [his] position [or] displayed
unprofessional behavior,” including:
(1)

On
May
23,
2011,
you
displayed
unprofessional behavior during a [meeting
when] you grabbed the microphone from a
colleague while he was speaking[,] placed it in
front of you[,] [and, after] you spoke [,] . . .
threw it across the table in the other
employee’s direction, which was very
disruptive to others in attendance.

(2)

On May 26, 2011, you proceeded to chastise
another employee after he interrupted you
during a group discussion. You were visibly
upset and proceeded to tell this employee that
“gentlem[e]n should not interrupt other people
while they speak[,]” [y]et . . . you displayed
this very behavior when another team
member was speaking.

(3)

On August 12, 2011, you were assigned as
Requirements Manger for the PTC Project and
were
responsible
for
producing
the
Requirements Plan. The template for this
project had been updated but follow-up

App. 34

conversations were required to further explain
your responsibility to revise the plan
documentation. You still did not understand
your role as Requirements Manager, even
after several follow-up meetings regarding the
same. As a result, it became necessary to
assign several junior staff members to assist
you with the [P]lan.

(4)

On August 22, 2011, you scheduled a meeting
and invited the entire team; however, you
were not prepared to present and proceeded to
make corrections during the discussion.
Consequently, your manager made an
executive decision to adjourn the meeting and
asked others to step in and complete the
document to avoid further delay.

(5)

On September 29, 2011, your manager met
with you to discuss both performance and
conduct issues. At this time, he offered advice
on how to improve your communication and
leadership skills. Unfortunately, you did not
agree that there was any need for
improvement.

Id. at 2-3. The letter concluded that, “[although you
have been counseled regarding the deficiencies in
your performance[,] there has been no improvement
in your performance as an Information Technology
Specialist,” and thus “[i]t is my decision to separate
you from the Federal Service during your
probationary
period
for
your
performance
deficiencies.” Id. at 3.
A few days later, Sagar wrote to Barry—his
third-level manager—to alert Barry to “certain

App. 35

events” that had affected Sagar’s “career at the IRS.”
Dkt. 100-20 at 2. He explained that his annual
performance review came as “a shock” and that the
evaluation was a “180 [-]degree distortion.” Id. He
went on to assert that he was “one of the best in the
technology field;” that he had “undertaken all
assigned tasks;” and that, based on his “superior
performance, there [was] no cause for the proposed
threat of removal action.” Id. Sagar also asked that
Barry “consider [him] for one of the vacant positions
[on] other projects.” Id. at 3. Barry was unpersuaded,
and he executed the Standard Form 52, terminating
Sagar’s employment with the IRS, effective
November 2, 2011. Dkt. 104-20 at 2-3. On that same
day, moreover, Sagar received Gianakos’s letter
dated October 27, 2011, setting forth the grounds for
termination. Dkt. 104-21 at 4-5 (Def.’s SUMF ]{ 14);
Dkt. 104-4 at 2.
On November 4, 2011, Sagar sought equal
employment opportunity (“EEO”) counseling
regarding “[w]hether [he was] disparately treated on
the basis of [a]ge” when he was fired. Dkt. 104-10 at
2-3 (EEO Counseling Report). About a week later, he
lodged a formal complaint with the Department,
asserting that his termination was the product of
age discrimination and retaliation and requesting
reinstatement and backpay. Dkt. 104-11 at 3. The
Department conducted an “administrative
investigation.” Dkt. 104-21 at 5 (Def.’s SUMF f 18).
Although neither party has directed the Court to any
formal findings or decisions rendered in the
Department’s administrative process, the
Department presumably upheld Sagar’s termination.

App. 36

B.

Procedural History
Following the conclusion of the Department’s
“administrative investigation,” Sagar filed this
action. Dkt. 104-21 at 5 (Def.’s SUMF ]f 18); see Dkt.
1. His amended complaint, Dkt. 41, initially asserted
six claims, which the Court construed in an earlier
memorandum opinion as follows: age discrimination,
retaliation, and hostile work environment claims
under the ADEA, 29 U.S.C. § 621 et seq. (Counts 1,
4, and 6); two claims based on the Department’s
alleged violation of ethical rules and regulations
under the Administrative Procedure Act (“APA”), 5
U.S.C. § 701 et seq. (Counts 2 and 3); and a claim
under the Whistleblower Protection Act, 5 U.S.C. §
2302(b)(8) (Count 5). Sagar v. Lew, 211 F. Supp. 3d
262, 265 (D.D.C. 2016). On the Department’s motion
to dismiss, the Court dismissed Sagar’s claims under
the APA and the Whistleblower Protection Act. Id. at
263. Accordingly, the only claims remaining are
Sagar’s three claims under the ADEA.1 Id. Sagar
and the Department both moved for summary
judgment. See Dkt. 101 (Sagar’s motion); Dkt. 104
(Department’s motion). The Court heard oral
argument on March 14, 2018, and the Court denied
Sagar’s motion because he “failed to offer
uncontroverted evidence” establishing that he was
entitled to judgment as a matter of law on any of his
1 Sagar’s motion for summary judgment asserts that “[t]he
surviving claims” include “[hjarassment and [Retaliation”
under the ADEA and Title VII. Dkt. 101 at 1. Sagar, however,
does not allege discrimination based on any characteristic other
than age and, as explained in the Court’s earlier memorandum
opinion, his only remaining claims fall under the ADEA. Sagar,
211 F. Supp. 3d at 263.

App. 37

three claims. Minute Order (Mar. 31, 2018).
Accordingly, all that remains before the Court is the
Department’s motion for summary judgment on
Sagar’s three ADEA claims.
II.

LEGAL STANDARD
The moving party is entitled to summary
judgment under Federal Rule of Civil Procedure 56 if
he can “showQ that there is no genuine dispute as to
any material fact and [that he] is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
The party seeking summary judgment “bears the
initial responsibility” of “identifying those portions”
of the record that “demonstrate the absence of a
genuine issue of material fact.” Celotex Corp. v.
Catrett, All U.S. 317, 323 (1986). A fact is “material”
if it could affect the substantive outcome of the
litigation. See Anderson v. Liberty Lobby, Inc., All
U.S. 242, 248 (1986). And a dispute is “genuine” if
the evidence is such that a reasonable jury could
return a verdict for the nonmoving party. See Scott v.
Harris, 550 U.S. 372, 380 (2007). The Court,
moreover, must view the evidence in the light most
favorable to the nonmoving party and must draw all
reasonable inferences in that party’s favor. See
Talavera v. Shah, 638 F.3d 303, 308 (D.C. Cir. 2011).
If the moving party carries this initial
burden, the burden then shifts to the nonmoving
party to show that sufficient evidence exists for a
reasonable jury to find in the nonmoving party’s
favor with respect to the “elements] essential to that
party’s case, and on which that party will bear the
burden of proof at trial.” Id. (quoting Holcomb v.
Powell, 433 F.3d 889, 895 (D.C. Cir. 2006)). The

App. 38

nonmoving party’s opposition, accordingly, must
consist of more than unsupported allegations or
denials and must be supported by affidavits,
declarations, or other competent evidence, setting
forth specific facts showing that there is a genuine
issue for trial. See Fed. R. Civ. P. 56(c); Celotex, 477
U.S. at 324. That is, once the moving party carries
its initial burden on summary judgment, the
nonmoving party must provide evidence that would
permit a reasonable jury to find in his favor. See
Laningham v. U.S. Navy, 813 F.2d 1236, 1241 (D.C.
Cir. 1987). If the nonmoving party’s evidence is
“merely colorable” or “not significantly probative,”
the Court should grant summary judgment. Liberty
Lobby, 477 U.S. at 249-50.
III.

ANALYSIS
The ADEA prohibits the federal government
from discriminating against its employees aged forty
or older on the basis of age, 29 U.S.C. § 633a(a), and
from retaliating against them for complaining about
age discrimination, 29 U.S.C. § 623(d). See GomezPerez v. Potter, 553 U.S. 474, 479 (2008); Kilby-Robb
v. DeVos, 246 F. Supp. 3d 182, 193 (D.D.C. 2017).
The statute’s prohibition on age discrimination,
moreover, takes two forms: it bars federal employers
from taking age-based adverse employment actions
against their employees, and it bars them from
subjecting their employees “to ‘discriminatory
intimidation, ridicule, and insult’ that is ‘sufficiently
severe or pervasive to alter the conditions of the
victim’s employment and create an abusive working
environment.’” Baloch v. Kempthorne, 550 F.3d 1191,
1201 (D.C. Cir. 2008) (citation omitted). Invoking all
three prohibitions, Sagar asserts that the

App. 39

Department terminated his employment because of
his age, retaliated against him for engaging in
ADEA protected activity, and subjected him to a
hostile work environment because of his age.
A. Termination Claim
Sagar first alleges that he was terminated
from his position as a probationary Technology
Specialist at the IRS because of his age. To prevail
on an ADEA discrimination claim, the plaintiff must
establish (1) that he “suffered an adverse
employment action” and (2) that his employer took
that action “because of his age. Brady v. Office of
Sergeant at Arms, 520 F.3d 490, 493 (D.C. Cir. 2008);
see Wilson v. Cox, 753 F.3d 244, 247 (D.C. Cir. 2014)
(noting that courts “generally apply the same
approach in ADEA cases ... as [they] do in Title VII
cases”). The plaintiff may meet this burden with
either direct or circumstantial evidence of
discrimination. Holcomb, 433 F.3d at 899. Where the
plaintiff relies on indirect or circumstantial evidence
of his employer’s intent, his claim is evaluated under
the familiar burden-shifting framework of
McDonnell Douglas Corp. v. Green, 411 U.S. 792
(1973). See, e.g., DeJesus v. WP Co. LLC, 841 F.3d
527, 532 (D.C. Cir. 2016) (Title VII and ADEA
discrimination); Jones v. Bernanke, 557 F.3d 670,
677 (D.C. Cir. 2009) (Title VII and ADEA
retaliation). “Under this formula, an employee must
first make out a prima facie case of retaliation or
discrimination. The employer must then come
forward with a legitimate, nondiscriminatory or nonretaliatory reason for the challenged action.” Morris
v. McCarthy, 825 F.3d 658, 668 (D.C. Cir. 2016)
(citations omitted).

App. 40

Once the employer proffers a legitimate, nondiscriminatory or non-retaliatory reason, however,
the Court “need not—and should not—decide
whether the plaintiff actually made out a prima facie
case.” Brady, 520 F.3d at 494. Instead, the Court
should decide only two questions: “Has the employee
produced sufficient evidence for a reasonable jury to
find [1] that the employer’s asserted . . . reason was
not the actual reason and [2] that the employer
intentionally discriminated against the employee on
the basis of [age]?” Id.; see DeJesus, 841 F.3d at 53233 (applying Brady to ADEA claims); accord Morris,
825 F.3d at 668; Allen v. Johnson, 795 F.3d 34, 39 &
n.4 (D.C. Cir. 2015).
The Court evaluates whether the plaintiff has
carried this burden “‘in light of the total
circumstances of the case,’ asking ‘whether the jury
could infer discrimination from the combination of
(1) the plaintiffs prima facie case; (2) any evidence
the plaintiff presents to attack the employer’s
proffered explanation for its actions; and (3) any
further evidence of discrimination that may be
available to the plaintiff... or any contrary evidence
that may be available to the employer.’” Nurriddin v.
Bolden, 818 F.3d 751, 758-59 (D.C. Cir. 2016)
(alteration in original) (quoting Hamilton v.
Geithner, 666 F.3d 1344, 1351 (D.C. Cir. 2012)).
“[T]he ultimate burden of persua[sion] . . . remains
at all times with the plaintiff.” Jackson u.
Gonzales, 496 F.3d 703, 706 (D.C. Cir. 2007) (quoting
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 143 (2000)).
Here, the Department has proffered a number
of legitimate, nondiscriminatory reasons for Sagar’s
termination: his unprofessional and at times hostile

App. 41

behavior toward his co-workers; his performance in
preparing the Requirements Plan; and his reluctance
to accept that his conduct and performance required
improvement. Dkt. 104 at 19; see Dkt. 104-4
(termination notice). The Court, accordingly, must
decide (1) whether Sagar has “produced sufficient
evidence for a reasonable jury to find that the
[Department’s] reason was not the actual reason”
why he was fired and (2) whether Sagar has
“produced sufficient evidence for a reasonable jury to
find that. . . the [Department] intentionally
discriminated against [him]” based on age. Brady,
520 F.3d at 494.
1. Direct Evidence of Age Discrimination
The Court must first assess whether Sagar
has adduced the type of direct evidence that would
preclude summary judgment in favor of the
Department. See Vatel v. All. of Auto. Mfrs., 627 F.3d
1245, 1246-47 (D.C. Cir. 2011) (evaluating a claim
under the D.C. analogue to “federal antidiscrimination laws”); Coats v. DeVos, 232 F. Supp.
3d 81, 87 (D.D.C. 2017). According to Sagar, a
number of age-related comments made by Brady and
Gianakos—and their “surrogate [s]”—meet this
burden. Dkt. 101 at 34-35. As explained below, the
Court disagrees.
Under Sagar’s theory of the case, Brady and
Gianakos (his first- and second-level managers)
decided to fire him because of his age and then
convinced Barry, his third-level manager, to approve
that decision. See, e.g., Dkt. 101 at 49. Sagar offers
no evidence that Barry held age-based animus, and,
indeed, it was Barry who interviewed and hired
Sagar less than a year before Sagar was terminated.

App. 42

Dkt. 100-24 at 2. As the district court held in an
ADEA case that Sagar brought against another
former employer, “[fjiring a protected employee a
‘relatively short time’ after hiring him creates a
strong inference against age discrimination.” Sagar
v. Oracle Corp, 914 F. Supp. 2d 688, 696 (D. Md.
2012) (citation omitted), aff’d, 523 F. App’x 999 (4th
Cir. 2013). That, however, does not dispose of
Sagar’s claim. Under the “cat’s paw” theory, “an
employer can be liable when a direct supervisor
harbors discriminatory animus and influences the
ultimate decision maker, even if that decision maker
lacks any discriminatory animus.” Noisette v. Lew,
211 F. Supp. 3d 73, 94 (D.D.C. 2016) (citing Staub v.
Proctor Hosp, 562 U.S. 411, 419 (2011)). Thus, the
Court must still consider whether Sagar has
proffered any evidence from which a reasonable jury
could find that Brady or Gianakos decided to
terminate Sagar’s employment because of his age.
The Court first concludes that Sagar has failed to
offer any direct evidence of any such age-based
animus.
Starting with Brady, Sagar asserts that
Brady “commented about [his] age and [said] that
[he] looked great for [his] age,” Dkt. 101 at 34,
“inquired about [his] age,” and told Sagar on
“multiple” occasions that he “was old and
experienced,” Dkt. 101-3 at 10. Accepting Sagar’s
description of events as true, as the Court must at
this stage of the proceeding, these remarks
demonstrate that Brady was aware of Sagar’s age.
But they do no more than that, and they certainly do
not constitute direct evidence of age-based animus in
any employment-related action. Such innocuous
remarks “unrelated to the relevant employment

App. 43

decision [do] not, without more, permit a
[reasonable] jury to infer discrimination.” Morris,
825 F.3d at 669; see also DeJesus, 841 F.3d at 536
(same); Elliott v. Acosta, — F. Supp. 3d —, 2018 WL
575559, at *6 (D.D.C. Jan. 26, 2018) (same); lyoha v.
Architect of the Capitol, 282 F. Supp. 3d 308, 321
(D.D.C. 2017) (“[T]he alleged discriminatory
statements cannot include mere ‘stray remarks’ that
have no bearing on the adverse action being
challenged.” (citation omitted)); Vasquez-Mills
u. District of Columbia, 278 F. Supp. 3d 167, 177
(D.D.C. 2017) (quoting Morris, 825 F.3d at 669).
Sagar does identify one comment that he
alleges was tied to the relevant employment
decision: when Sagar “reminded” Brady about the
need to complete his annual appraisal, Brady
allegedly responded, “You are very senior[;] we have
time to get it done.” Dkt. 101 at 35; Dkt. 101-3 at 11.
It is not at all clear to the Court what inference
Sagar would draw from this statement. It is clear,
however, that no reasonable jury could find that a
reference to Sagar’s seniority, even in the context of
the timing of his appraisal, constitutes direct
evidence of age- based animus.
The remarks that Sagar attributes to
Gianakos are even less probative. He asserts that
Gianakos once asked another employee, Matthew
Sikowitz, about that employee’s retirement plans,
Dkt. 101 at 35, and that, when yet another
employee, Walter Kirkland, referred to Andy
Rooney’s retirement from the television show “60
Minutes,” Gianakos said that he “would have let
[Rooney, who was 92 years old,] retire 10 years ago,”
id. He also reports that, when Gianakos was
escorting Sagar from the building, Sagar asked

App. 44

Gianakos about Gianakos’s “injured knee,” and
Gianakos replied that “he [may be] getting old.” Id.
at 35; Dkt. 101-3 at 12. None of this comes close to
constituting direct evidence that Gianakos
discriminated against Sagar because of his age or
that Gianakos held any age-based animus toward
anyone. Andy Rooney once remarked, “It’s
paradoxical that the idea of living a long life appeals
to everyone, but the idea of getting old doesn’t
appeal to anyone.” That none of us like getting older
(at least after a point); that we may blame our
ailments on our age; and that Gianakos may have
grown tired of Andy Rooney’s brand of humor after
more than three decades does not reflect a workplace
bias against older employees.
Finally, Sagar contends that comments made
by various “surrogate[s]” of Brady and Gianakos
show that Brady and Gianakos discriminated
against Sagar because of his age. Each of these
statements fail for two reasons: First, the statements
“cannot constitute direct evidence of discrimination
because they were not made by someone who
participated in the decision to terminate” Sagar,
Steele v. Carter, 192 F. Supp. 3d 151, 166 (D.D.C.
2016) (citing Wilson, 753 F.3d at 247; Holbrook u.
Reno, 196 F.3d 255, 260 (D.C. Cir. 1999)), and,
despite Sagar’s use of the term “surrogate,” there is
no evidence that any of these individuals spoke on
behalf of Brady or Gianakos or with their
encouragement. Second, these statements do not
reflect any bias in any employment-related matter.
Walter Kirkland, an IT Project Manager, for
example, purportedly told Sagar that he—that is,
Kirkland—had worked at Verizon for 26 years and
then asked Sagar “how long” he had worked at his

App. 45

previous place of employment. Dkt. 101 at 34.
Kirkland also allegedly commented to Sagar, “[Y]our
daughter is married and looks great compared to
you, you must be in [. . .] ?” Id. Another employee,
Mariamma Cherian, reportedly told Sagar that she
had seen his “daughter’s wedding pictures” and said,
“[Y]ou must be quite senior[,] close to retirement.”
Id. And Lin, who clashed with Sagar on several
occasions, allegedly said to Sagar on his birthday, “I
am not yet 60, what about you?” Dkt. 41 at 8-9 (Am.
Compl. U 43). Lin was only a couple years younger
than Sagar at the time. See Dkt. 104 at 21. Even if
some of these comments were impolite, none of them
would permit a reasonable jury to find that Brady or
Gianakos decided to terminate Sagar because of his
age.
2. Circumstantial Evidence of Age
Discrimination
An ADEA plaintiff may also defeat a
defendant’s motion for summary judgment by
offering circumstantial evidence that his employer’s
“asserted non-discriminatory reason” for taking the
adverse employment action “was not the actual
reason and that the employer
intentionally discriminated against the employee on
the basis of' his age. Brady, 520 F.3d at 494; see also
Johnson v. InterstateMgmt. Co., 849 F.3d 1093, 1099
(D.C. Cir. 2017) (applying Brady in an ADEA case).
In deciding “whether summary judgment... is
warranted for the employer, the court [must]
consider!] all relevant evidence presented by the
plaintiff and defendant," including circumstantial
evidence. Brady, 520 F.3d at 495. A plaintiff might,
for example, attempt “to show that the employer’s

App. 46

stated reason for the employment action was not the
actual reason," that the “employer [was] making up
or lying about the underlying facts that formed the
predicate for the employment decision," that “the
employer treated other," younger “employees . . .
more favorably," that the employer’s account of what
happened changed over time or that the employer
offered inconsistent reasons for acting, that the
employer generally treated older employees less
favorably, or that the employer failed “to follow
established procedures or criteria." Id. at 495 & n.3.
As the D.C. Circuit has reiterated, however,
the “relevant factual issue" on summary judgment is
not “whether the underlying . . . incident occurred."
Id. at 496. Instead, the question is “whether the
employer honestly and reasonably believed’ that the
incident occurred. Id.; see also Johnson, 849 F.3d at
1100 n.2 (“Even if Johnson had produced sufficient
evidence to dispute whether the infractions occurred,
Johnson did not provide sufficient evidence to call
into question whether hotel management ‘honestly
and reasonably believed that the infractions
occurred.");Moms, 825 F.3d at 671 (Plaintiff “must
raise a genuine dispute over the employer’s honest
belief in its proffered explanation."); accordDeJesus,
841 F.3d at 533; Hairston v. Vance-Cooks, 773 F.3d
266, 273 (D.C. Cir. 2014); Hampton v. Vilsack, 685
F.3d 1096, 1101 n.8 (D.C. Cir. 2012); Vatel, 627 F.3d
at 1248. And “[i]f the employer’s stated belief about
the underlying facts is reasonable in light of the
evidence, . . . there ordinarily is no basis for
permitting a jury to conclude that the employer is
lying about the underlying facts.” Brady, 520 F.3d
at 495.
Sagar’s principal argument is that the

App. 47

Department’s stated reasons for firing him were not
true and were pretext for age discrimination, and
that a reasonable jury could find discriminatory
intent based on the Department’s subterfuge. See
Reeves, 530 U.S. at 147; Cones v. Shalala, 199 F.3d
512, 519 (D.C. Cir. 2000). In order to appraise the
force of this contention, the Court must consider
both the stated reasons for the Department’s action
and any controverting evidence offered by Sagar.
That process is complicated by the fact that Sagar is
proceeding pro se, and he makes a number of
sweeping statements denying that the events
occurred as the Department reported. He declares,
for example, that the Department “made up events
that were disclosed” in the termination letter, that
“[t]he performance appraisal conducted by Brady
was not factual,” and that “Brady made up things
and was not honest in his observations.” Dkt. 101-2
at 3. From these and other similar assertions, it is
difficult to discern whether Sagar disputes the
Department’s characterization of events or, instead,
disputes whether the events, in fact, occurred. It is
also unclear whether he disagrees with minor details
about the events, such as the precise days on which
they purportedly occurred, or whether he disagrees
with the essential substance of what the Department
reported.
In light of Sagar’s failure meaningfully to
controvert the specific evidence offered in support of
the Department’s motion, the Court might have
concluded that Sagar had failed to “provide evidence
that is sufficient for purposes of summary judgment
to cast doubt on the adverse employment record
established by the large volume of evidence,
Johnson, 849 F.3d at 1100, which includes Sagar’s

App. 48

performance evaluation, Dkt. 104-9, the termination
letter, Dkt. 104-4, Lin’s notes, Dkt. 104-6 at 22-23,
and Brady’s account of why he recommended Sagar’s
dismissal, Dkt. 64-6 at 33-35. But, in light of the
Court’s obligation to construe pro se pleadings
liberally, see Erickson v. Pardus, 551 U.S. 89, 94
(2007), the Court provided Sagar with the
opportunity at oral argument to clarify the nature
and extent of his denials. See Fed. R. Civ. P. 56(e)
(“If a party fails to properly . . . address another
party’s assertion of fact as required by Rule 56(c),
the court may . . . give an opportunity to properly
support or address the fact. . . .”). With those
clarifications in mind, the Court will review each of
the five rationales that the Department identified in
its termination letter.
First, the Department stressed Sagar’s
“unprofessional behavior” at a meeting and, in
particular, the fact that he grabbed the spider
conference telephone extension “from a colleague
while [that person] was speaking,” “placed it in
front” of himself, and, after he was done speaking,
“threw” the microphone “across the table” in the
direction of his colleague. Dkt. 104-4 at 2.
Unsurprisingly, the termination letter reports that
this action “was very disruptive to others in
attendance.” Id. In his motion for summary
judgment, Sagar responds that he “is not a
psychiatric patient to grab microphones and throw
them when done,” that Lin—who recorded this event
in his notes, which he later gave to Brady—
“perceived something that was not there,” and that
“[t]he event was concocted” because the Department
“want[ed] to terminate” him. Dkt. 101 at 37-38.
When asked about this at oral argument,

App. 49

however, Sagar explained that “it was [his] practice
at times to move [the microphone] towards [him] self,
but. . . never . . . when someone else was talking”
and that “it was [his] practice at times to toss the
microphone.” Oral Arg. Tr. (Rough at 11:37). He
acknowledged, however, that he did not recall “the
particular meeting” cited in the termination letter,
that he did not recall “whether [he] took the
microphone from someone else while [that person
was] speaking,” and that he did not recall whether
he “tossed or
threw the microphone [in] someone else’s direction.”
Id. (Rough at 11:39-40). He also objected to Lin’s
suggestion that the only “proper way” to give the
telephone to someone else was to pass it hand-tohand. Id. (Rough at 11:40).
Understood in this light, Sagar’s opposition
offers insufficient evidence to permit a reasonable
jury to conclude that the telephone incident did not
occur and that Lin, Brady, and Gianakos concocted
or distorted the episode as pretext for discriminating
against Sagar because of his age. Sagar concedes
that he does not recall the meeting and that he
would, at times, “toss or thr[o]w the microphone [in]
someone else’s direction.” Id. (Rough at 11:39-40).
Lin, however, made notes regarding the incident.
Dkt. 104-6 at 7 (Lin Dep. 42:12-44:19). Like the
termination letter, those notes state that Sagar
“grabbed the microphone while [Lin] was speaking,”
“moved it directly ... in front of him,” and then
“threw it across the table” in Lin’s direction when
done. Id. at 22. There is no evidence suggesting that
Lin, who was himself 59 years old, harbored any agebased animus toward Sagar. To be sure, Lin and
Sagar may not have gotten along. But there is no

App. 50

evidence that would permit a reasonable jury to find
that Lin fabricated his notes for the purpose of
sharing them with Brady months later, that Lin had
developed a plan to induce Brady to fire Sagar, and
that Lin was motivated by age-based animus.
Moreover, even if the events did not occur precisely
as Lin recorded, and as Brady repeated, “the
relevant factual issue” is not “whether the
underlying . . . incident occurred” exactly as it was
recounted in the termination letter, but whether the
deciding officials—or those who may have influenced
their decisions, see Noisette, 211 F. Supp. 3d at 94—
“honestly and reasonably believed” that it occurred
as it was recounted. Brady, 520 F.3d at 490 (citing
George v. Leavitt, 407 F.3d 405, 415 (D.C. Cir. 2005);
Fischbach v. D.C. Dep’t of Corr., 86 F.3d 1180, 1183
(D.C. Cir. 1996)).
Second, the Department also relied upon an
incident in which Sagar purportedly “chastise [d]
another employee after he interrupted [Sagar]
during a group discussion.” Dkt. 1044 at 2. Sagar,
who was “visibily upset,” told the employee that
“gentlem[e]n should not interrupt other people while
they speak,” but then himself interrupted “another
team member” during the same meeting. Id. Lin
recorded in his notes and testified at his deposition
that he was the other employee in this interaction
and that Sagar “thr[e]w down his pencil,” “start[ed]
lecturing [him on] how gentlemen should not
interrupt other people while they speak,” and later
interrupted another employee. Dkt. 104-6 at 17 (Lin
Dep. 114:16-115:2). In his opposition brief, Sagar
argues that this rationale for his termination was
also pretextual. He asserts, for example, that the
story of what happened “is all concocted,” that Lin

App. 51

“habitually]” interrupted Sagar, and “[t]here was no
need for [the] interruption in a sane technical
discussion.” Dkt. 101 at 38. He also asserts,
moreover, that Lin “concocted” the story “for pay to
play” purposes and that he “was given [an]
outstanding rating [as an] award.” Id. at 39. Once
again, however, the basis for Sagar’s conclusory
assertions is unclear.
When asked to clarify at oral argument, Sagar
conceded that he did not, in fact, recall whether he
said anything to Lin about interrupting him while he
was speaking, although he explained that it was his
general practice not to interrupt others. Oral Arg.
Tr. (Rough at 11:4142). Sagar’s inability to recall the
meeting in question means that the Department’s
factual account of this event, like the telephone
incident, remains largely undisputed and that Sagar
has failed to offer any evidence that would permit a
reasonable jury to find that the second stated reason
for his termination was pretextual. The Department,
in contrast, has produced sworn testimony indicating
that the incident occurred. Sagar’s own pleadings,
moreover, confirm that he was frustrated by his
interactions with Lin, see, e.g., Dkt. 101 at 38
(referring to Lin’s interruptions as “habitual,” to
Lin’s “antagonis[m],” and to Lin’s “shallow technical
capabilities”), providing further support for the
Department’s conclusion that their working
relationship had become toxic. But, in any event, the
Court need not decide whether Lin’s account of what
happened is accurate or fair. All that matters for
present purposes is whether Sagar has offered
“sufficient evidence to call into question” whether
the deciding officials— Brady, Gianakos, and

App. 52

Barry—‘“honestly and reasonably believed’ that that
[misconduct] occurred,” Johnson, 849 F.3d at 1100
n.2, and he has failed to offer any evidence that
would permit a reasonable jury to find that they
doubted, or had reason to doubt, Lin’s rendition of
the relevant events.
Third, the Department raised performance concerns
about Sagar’s role as “Requirements
Manager for the PTC Project,” and, in particular,
asserted:
On August 12, 2011, you were assigned
as Requirements Manager for the PTC
Project and were responsible for
producing the Requirement[s] Plan. The
template for this project had been
updated[,] but follow-up conversations
were required to further explain your
responsibility to revise the plan
documentation. You still did not
understand your role as Requirements
Manager, even after several follow-up
meetings regarding the same. As a
result, it became necessary to assign
several junior staff members to assist
you with the [P]lan.
Dkt. 104-4 at 3. Sagar first argues that the stated
concern with his performance is false because
he was assigned to serve as the Requirements
Manager in February 2011 and not on August 12,
2011, as the termination letter suggests. Id. (“Sagar
was the [Requirements [M]anager all along
. . . .”). That, however, is a quibble with a minor
detail and not with the substance of the stated
concern. All agree that Sagar received the

App. 53

assignment before August 12, 2011. As Brady
explained at his deposition, the reference to August
12, 2011 in the letter was not intended to
refer to the date he received the assignment but to
when Sagar’s performance on that assignment
fell short. See Dkt. 104-8 at 4 (Brady Dep. 35:9-17).
Although inartfully phrased, there is no suggestion
in the letter that the purported shortcomings in
Sagar’s performance had anything to do with the
date he was originally assigned the role of
Requirements Manager; to the contrary, if he had
been assigned that role on August 12, 2011, there
would have been little basis to criticize his
performance during what would have been his first
days in a new role. Sagar’s first factual objection,
accordingly, is based on a misreading of the letter
and, more importantly, is immaterial to the
substance of the Department’s criticism of his
performance. See Liberty Lobby, All U.S. at 248;
Richardson v. Nat’lRifle Ass’n, 871 F. Supp. 499, 503
(D.D.C. 1994) (the factual assertions “either do not
support [Plaintiffs] allegation or are immaterial”).
Sagar also disputes the letter’s assertion that
“follow-up conversations were required to further
explain [his] responsibility to revise the [P]lan
documentation.” Dkt. 104-4 at 3. When the Court
asked at oral argument whether he disputes that
those conversations occurred or merely disputes that
they were “required,” Sagar conceded that the
conversations occurred. See Oral Arg. Tr. (Rough at
11:50-51). “[T]hey were not required,” in his view,
however, and merely took place “because
[management] wanted the others to learn from [his]
experience.” Id. (Rough at 11:50-51). But Sagar
offers no evidence to support his speculation why his

App. 54

managers initiated the conversations. The
Department, in contrast, has offered competent
evidence that supports the letter’s description of the
relevant events. See, e.g., Dkt. 62-7 at 11 (Brady
Dep. 38:1-18); Dkt. 104-7 at 8 (Sikowitz Dep. 113:48). To be sure, Sagar may sincerely believe that the
meetings were not necessary, and he may even be
right. But it is not the Court’s role to put itself in the
place of Sagar’s managers and to decide what was
necessary, or, indeed, to decide whether Sagar
performed well—or not. See Brady, 520 F.3d at 495.
Rather, the Court’s role is limited to determining
whether Sagar has produced evidence that would
permit a reasonable jury to find
that the termination letter includes statements
that the deciding officials believed to be false and
that those statements were included as a pretext
for discrimination. Id. He has not done so.
The same is true with respect to the next
sentence of the termination letter. Sagar does not
dispute that “several follow-up meetings” took place,
but he disagrees with the assessment that he “did
not understand [his] role as Requirements Manager”
even after they occurred. Dkt. 104-4 at 3; see Oral
Arg. Tr. (Rough at 11:51-53). As Sagar explained at
oral argument, what he disputes is the premise that
he did not know what he was doing. Oral Arg. Tr.
(Rough at 11:5253). In Sagar’s words, “No discussion
was necessary[;] I knew my job.” Id. (Rough at
11:52). Subjective, personal assessments of that
type, however, are insufficient to establish a triable
issue of fact in a discrimination case. As the D.C.
Circuit has explained, “[i]t is settled that ‘it is the
perception of the decision maker which is relevant,
not the self-assessment of the plaintiff.’” Vatel, 627

App. 55

F.3d at 1247 (citation omitted); see also Walker v.
Johnson, 798 F.3d 1085, 1094 (D.C. Cir. 2015); Dyer
v. McCormick & Schmick’s Seafood Rests., Inc., 264
F. Supp. 3d 208,
229 (D.D.C. 2017); Bell v. Donley, 928 F. Supp. 2d
174, 180 (D.D.C. 2013); Washington v.
Chao, 577 F. Supp. 2d 27, 44 (D.D.C. 2008).
This, then, leaves the final sentence of the
paragraph, which asserts that “it became necessary
to assign several junior staff members to assist
[Sagar] with the” Performance Plan. Dkt. 104-4 at 3.
Sagar disagrees, but that disagreement is, again,
unsupported by any evidence that would permit a
reasonable jury to find that the assertion constitutes
pretext for discrimination. Brady explained at his
deposition that Sagar completed an earlier version of
the Requirements Plan but that, subsequently, “the
template . . . was updated [and the] [Requirements
[P]lan needed to be updated to follow the new
template.” Dkt. 104-8 at 4 (Brady Dep. 35:20-36:6).
According to Brady, at that point, he asked Walter
Kirkland and an outside contractor to assist in
completing the Plan. Dkt. 62-7 at 10-11 (Brady Dep.
37:18-38:18). Brady’s notes, which he shared with
Labor Relations, also reflected that “[s]everal junior
staff [members] had to step in to assist [Sagar] in
getting started and understanding the process.” Dkt.
64-6 at 33.
Matthew Sikowitz, another Technology
Specialist, confirmed Brady’s account. He
testified that “Sagar could not produce a final
version [of the Requirements Plan] that was
acceptable for signature,” Dkt. 104-7 at 8 (Sikowitz
Dep. 113:4-8); that “Kirkland asked

App. 56

[Sikowitz] to help out on getting the document
finalized,” id. (Sikowitz Dep. 113:4-8); that
Sagar “sent [the draft] to [him] at Walter’s request,”
id. at 11 (Sikowitz Dep. 122:5-7); and that
Sikowitz “revised it,” id. (Sikowitz Dep. 122:5-7).
Sikowitz explained:
[There] was a template . . . and you had
to fill in how the project was going to
conduct the requirements gathering,
what tools [were] going to be used, and
how various things were going to be
measured, like project scope and
number ... of requirements and
difficulty, and some of these things
needed to be finalized. And Walter
[Kirkland] asked me to step in and
work on some of them.
Id. at 8 (Sikowitz Dep. 113:12-20). Sikowitz further
clarified that, for the “Requirements [P]lan,
[he] assisted [Sagar] . . . before [Sagar] left” and that
he “took over [the separate] requirements
development after [Sagar] left.”2 Id. at 9 (Sikowitz
2 Although directed principally at that separate “requirements
development” project, a declaration provided by Walter
Kirkland avers that he “personally and repeatedly urged . . .
Sagar to schedule a requirements review meeting, so that the
finalized requirements could be produced,” Dkt. 104-16 at 3
(Kirkland Decl. If 5); that “Sagar organized a meeting after
multiple requests from [Kirkland] and from . . . Gianakos,” id.
(Kirkland Decl. If 6); that, “[notwithstanding the meeting,
[Sagar] produced no finalized requirements,” id. (Kirkland
Decl. f 6); and that he “asked . . . Sikowitz and others to help
[him] complete the process,” which was ultimately “done in the

App. 57

Dep. 116:15-17).
Sagar at times suggests that he—and he
alone—performed all of the work on the final
Requirements Plan, but he also concedes that others
were involved. Thus, in his “narrative
response” to his performance evaluation, Sagar
wrote: “With team input, the [Requirements Plan]
was completed by me from start to finish.” Dkt. 56-17
at 3 (emphasis added). More importantly for present
purposes, he clarified at oral argument that much of
his disagreement with the Department’s assertion
that others assisted on the Plan is not based on
personal knowledge, and that which is based on
personal knowledge is a matter of subjective
characterization. He agreed, for example, that
“junior people were assigned or coming to the
[Requirement. . . [Pjlan meetings,” but assumed
that they attended only “to learn” or because they
did not have other work to do. Oral Arg. Tr. (Rough
at 11:53-59). He conceded, however, that he was not
involved in assigning the junior staff. Id. (Rough at
11:59). More significantly, Sagar does not dispute
that Kirkland—who, as a GS-14, was slightly junior
to Sagar—was asked to edit the draft Requirements
Plan. Id. (Rough at 11:53). He merely contends that
Kirkland’s assistance “was not required because
editing was done by a different unit under the ACA.”
Id. (Rough at 11:53). In other words, he does not
dispute that Kirkland contributed to the Plan, but
simply maintains that his assistance was
unnecessary because others in the Department
would have eventually edited his work.

fall of 2011 after . . . Sagar left the agency,” id. (Kirkland Decl.

1 6).

App. 58

Understood in this light, the Court cannot
conclude that Sagar has offered any evidence that
would permit a reasonable jury to find that the third
set of events described in the termination letter
constituted prextext for age discrimination. Bell, 928
F. Supp. 2d at 180.
Fourth, the Department relied on Brady’s
frustration with a meeting that Sagar scheduled—
and invited the entire team to attend—regarding the
Requirements Plan, but at which Sagar was “not
prepared to present and proceeded,” instead, “to
make corrections” to the Plan “during the
discussion.” Dkt. 104-4 at 3. As a result, according to
the termination letter, Brady decided to “adjourn the
meeting” and to ask “others to step in [to] complete
the document.” Id. To the extent that Sagar disputes
Brady’s assertion that others helped with the Plan,
his challenge to that portion of the rationale fails for
the reasons just discussed. As Sagar explained when
asked about this at oral argument, he does not
dispute that Kirkland edited his work; he merely
contends that the edits were unnecessary. Oral Arg.
Tr. (Rough at 11:53).
Sagar also disputes that he made corrections
to the Plan during the meeting, offering that he was
actually only taking notes on his computer. Id.
(Rough at 12:07-08). Sagar’s suggestion that Brady
misunderstood what Sagar was doing—and
incorrectly thought that he was making corrections
to the Plan itself, rather than simply taking notes—
however, does not constitute evidence of pretext or
discriminatory intent. The relevant question, once
again, is not whether the employer’s proffered,
nondiscriminatory reason for taking an adverse
action is correct, but whether the “employer honestly

App. 59

believe [d]” that it was correct. Fischbach, 86 F.3d at
1183.
That principle, moreover, also disposes of Sagar’s
contention that he was as prepared as he could have
been for the meeting and that he only learned about
changes to the template at the meeting; Sagar offers
no evidence that would allow a reasonable jury to
find that Brady’s assessment of Sagar’s preparation
was not merely mistaken, but dishonest. See Oral
Arg. Tr. (Rough at 12:0507). Finally, Sagar contends
that Brady did not adjourn the meeting and that it,
in fact, lasted an hour. Id. (Rough at 12:13). That
contention is at best peripheral to the substance of
Brady’s criticism, which would stand regardless of
whether Brady, in fact, adjourned the meeting early.
Finally, the termination letter stressed that
Brady met with Sagar “to discuss both performance
and conduct issues” and that, “[u] nfortunately,
[Sagar] did not agree that there was any need for
improvement.” Dkt. 104-4 at 3. Sagar contends that
this assertion was “false,” but, in the same breath,
confirms that—to this day—he does not believe that
his conduct or performance called for any
improvement. Dkt. 101 at 41. As Sagar puts it, he
“did outstanding work in program leadership,
employee satisfaction, customer satisfaction,
business results, professional expertise,” and
timeliness. Id. The falsity that he posits, instead, is
the assertion that Brady met with him “to discuss
both performance and conduct issues.” Id. That
statement was false, according to Sagar, because
“[t]he annual appraisal meeting was brief.” Dkt. 1013 at 8 (First Sagar Deck). But Sagar himself
submitted a declaration attesting that “[a]round

App. 60

September 29, 2011 Brady prepared [the] . . .
evaluation and discussed it with” Sagar. Id. at 5
(First Sagar Decl.) (emphasis added). He also
concedes that he responded, in writing, to the
appraisal, see Dkt. 56-17 at 2-4, and a review of that
document shows that Sagar failed to acknowledge
the need to improve in any respect. Later, moreover,
he wrote to Barry asserting that the appraisal was
“not factual” and that it was a “ 180 [-] degree
distortion.” Dkt. 100-20 at 2. Accordingly, there is no
genuine dispute that Sagar “did not agree that there
was any need for improvement,” Dkt. 104-4 at 3, and
that he repeatedly made his disagreement known.
***

For all of these reasons, the Court concludes
that no reasonable jury could find that the
Department’s proffered explanations for Sagar’s
dismissal were pretextual, much less that the
Department’s actual reason for terminating Sagar
was his age. The Court will thus grant the
Department’s motion for summary judgment on
Sagar’s termination claim.3

3 Sagar asserts that his termination violated various
personnel policies, Dkt. 101 at 20-21, which the Department
disputes, Dkt. 104 at 25. Sagar advances a number of theories
as to why the Department’s investigation and termination were
deficient. These theories suffer from legal or factual flaws. For
instance, Sagar contends that Barry “rel[ied] on hearsay” in
approving Sagar’s termination. Dkt. 101 at 20-21. The hearsay
rule, however, does not apply to an employer’s personnel
investigations. Sagar also asserts that persons known and
unknown “t[a]mpered” with or “falsely completed” various
forms. Id. (referring to Form 6771 and Form 12450-B); id. at 47
(referring to Form 11396). But he has provided no evidence to

App. 61

B.

Retaliation Claim
The ADEA prohibits employers from
retaliating against an employee who complains of
age discrimination. See Jones, 557 F.3d at 680
(“[T]he ADEA protect[s] employees who engage in . .
. protected activity.”); see also Gomez-Perez, 553 U.S.
at 479. “To prove unlawful retaliation, a plaintiff
must show: (1) that he opposed a practice made
unlawful by [the ADEA]; (2) that the employer took a
materially adverse action against him; and (3) that
the employer took the action because the employee
opposed the practice.”4 Harris v. D.C. Water & Sewer
Auth., 791 F.3d 65, 68 (D.C. Cir. 2015)
(quotingMcGrath v. Clinton, 666 F.3d 1377, 1380
(D.C. Cir. 2012)). There is no dispute that Sagar
suffered a “materially adverse action” when he was
terminated on November 2, 2011. Sagar’s claim fails,
however, at both the first and third prongs of the
standard.
Sagar attempts to rely on a number of
activities that fall beyond the reach of the ADEA’s
anti-relation provision. He contends, for example,
that he made charges under Title VII of the Civil
Rights Act of 1964, 42 U.S.C. § 2000e-3, against
Brady and Gianakos for “duplicating consulting
work,” for violating rules relating to “open bidding,”
and for using “federal employees who had little work
in place of vendor consultants of unknown
talent/qualification.” Dkt. 101 at 45. None of these
substantiate these assertions.
And, even putting these flaws aside, Sagar has failed to
argue—or to present any evidence—that any such procedural
defect “gives rise to an inference of discrimination.” Kilby-Robb,
246 F. Supp. 3d at 199.

App. 62

charges “opposed any practice made unlawful by” the
ADEA, 29 U.S.C. § 623(d), and thus none constitutes
a protected activity for purposes of the ADEA. See
Harris, 791 F.3d at 68.
Sagar does, however, allude to one activity
that comes closer to the mark—he asserts that he
“approached concerned offices/individuals around”
October 18, 2011, “for help.” Dkt. 101 at
4 Although not at issue here, a plaintiff may also
premise an ADEA retaliation claim on his
participation in “an investigation, proceeding, or
litigation under” the ADEA. 29 U.S.C.
§ 623(d).
46. In particular, Sagar avers that in September or
October of 2011, he “called and talked with
Cassandra Williams,” an “[e]mployee [in] Labor
Relations,” to “initiate a grievance and EEO
complaint.” Dkt. 101-5 at 3 (Sixth Sagar Decl. If 11).
Sagar “believe [s]” that he “followed ... up with an
email,” and he asserts that Williams told him that
EEO complaints were “not admissible” for
probationary employees. Id. (Sixth Sagar Decl. Tf
11). Email correspondence submitted with the
parties’ summary judgment motions confirms that,
on October 18, 2011,
Sagar asked Jean Bell, another IRS employee, about
the “[g]riev[a]nces [p]rocess,” and Bell directed Sagar
to Williams. Dkt. 104-13 at 3. Sagar and Williams
evidently spoke that same day, and Williams
followed up with an email: “Mr. Sagar - Per our
conversation, the [Internal Revenue Manual] 6.771.1
will provide guidance on the Agency Grievance
System for NonBargaining Unit.” Id. at 2.

App. 63

It is far from clear from this record—or from
any other evidence—that Sagar complained in
October 2011 to Williams or anyone else about age
discrimination. Indeed, by Sagar’s own account, he
merely asked Williams how to initiate a “grievance
and EEO complaint” and was told that a
probationary employee could not do so. The record
does not show that he referred to his age or
described the substance of his claim. But, giving
Sagar the benefit of the doubt and assuming that
such a general inquiry about how to initiate an EEO
complaint constituted protected activity for purposes
of the ADEA, Sagar still fails to offer any evidence
that would permit a reasonable jury to find that he
was fired because he engaged in that protected
activity. See Harris, 791 F.3d at 68. Most
significantly, by October 18, 2011—the day on which
Sagar was referred to Williams and asked her about
“the Agency Grievance System for NonBargaining
Unit” employees, Dkt. 104-13 at 2—Brady had
already decided to move forward with Sagar’s
termination. See Dkt. 104-8 at 3 (Brady Dep. 31:822) (Brady decided to fire Sagar “after the evaluation
meeting” on September 29, 2011). Indeed, by Sagar’s
own theory of the case, the deficiencies identified in
Sagar’s performance evaluation, which was delivered
on September 29, 2011, see Dkt. 104-4 at 3; Dkt. 1049, were contrived to create the record that would
permit his termination. See Dkt. 101 at 27. Brady, of
course, could not possibly have initiated Sagar’s
termination in late September 2011 in retaliation for
Sagar’s inquiry to Williams three weeks later, on
October 18, 2011.
Although this timeline provides ample basis

App. 64

for rejecting Sagar’s retaliation claim, the claim fails
for a second reason as well: the record is devoid of
any evidence that Sagar’s managers were aware that
he intended to pursue the EEO process at any point
leading up to his termination. Brady and Gianakos
testified under the penalty of perjury that they were
not “aware of any EEO activity until after [Sagar]
was terminated.” Dkt. 104-1 at 6 (Brady Decl. t 19);
Dkt. 104-2 at 8 (Gianakos Decl.
22). And, despite
engaging in extensive discovery and taking
numerous depositions, Sagar has failed to identify
any evidence that even arguably undercuts this
testimony. Under these circumstances, no
reasonable jury could find that Brady and Gianakos
recommended that Sagar be fired because he
opposed a practice made illegal by the ADEA.
The Court will, accordingly, grant the
Department’s motion for summary judgment on
Sagar’s ADEA retaliation claim.
C.

Hostile Work Environment Claim
To prevail on a hostile work environment
claim, an employee must demonstrate that his
“workplace [was] permeated with discriminatory
intimidation, ridicule, and insult” and that this
conduct was “sufficiently severe or pervasive to alter
the conditions of the victim’s employment and [to]
create an abusive working environment.” Harris v.
Forklift Sys., Inc., 510 U.S. 17, 21 (1993) (internal
quotation marks and citation omitted); see also
Baird v. Gotbaum, 662 F.3d 1246, 1250 (D.C. Cir.
2011). This standard requires that the employee
show (1) that he is “a member of a protected class;”
(2) that he “was subjected to unwelcome

App. 65

harassment;” (3) that “the harassment occurred
because of the plaintiffs protected status;” (4) that
“the harassment affected a term, condition, or
privilege of employment;” and (5) that “the employer
knew or should have known about the harassment,
but nonetheless failed to take steps to prevent it.”
Moore v. Castro, 192 F. Supp. 3d 18, 53 (D.D.C.
2016) (quoting Baloch v. Norton, 355 F. Supp. 2d
246, 259 (D.D.C. 2005), aff’dsub nom. Baloch v.
Kempthorne, 550 F.3d 1191, 1201 (D.C. Cir. 2008));
see also Smith v. Jackson, 539 F. Supp. 2d 116, 137
(D.D.C. 2008). In assessing a hostile work
environment claim, the Court must examine “all the
circumstances, including the frequency of the
discriminatory conduct; its severity; whether it is
physically threatening or humiliating, or a mere
offensive utterance; and whether it unreasonably
interferes with an employee’s work performance.”
Nat’lR.R. Passenger Corp. v. Morgan, 536 U.S. 101,
116 (2002) (internal quotation marks and citation
omitted).
Sagar’s complaint does not clearly delineate
the acts that he contends gave rise to an age- based
hostile work environment. Because he is proceeding
pro se, however, the Court will once again give him
the benefit of the doubt, see Erickson, 551 U.S. at 94,
and will consider each of the acts that he identifies
in his summary judgment briefing. Starting with
Sagar’s motion for summary judgment, he identifies
the following acts that allegedly created a hostile
work environment: (1) Sagar had to “work under
lower[-] grade [Premium Tax Credit] managers as
well as vendor consultants,” while Lin “misbehaved”
and “was pampered;” (2) Sagar was “not authorized
to attend meetings at [the Department of Health and

App. 66

Human Services (“HHS”)], the agency that was
framing the requirements,” even though Lin was
permitted to attend; (3) Sagar “was left behind when
others discussed requirements with users and
vendor consultants;” (4) Lin
was “encouraged to concoct two events listed in the
termination letter [in exchange] for [receiving an]
outstanding ranking, recommendation for a reward,
and promotional consideration;” (5) Sagar “received
threatening [telephone] calls from IRS officials”
beginning “sometime in 2011;” (6) Brady and
Gianakos made “false statements in [F]orm 11396
and delet[ed] [the] rating official’s electronic
signature^ from the . . . official performance
agreement;” and (7) Sagar was denied a transfer to
another project. Dkt. 101 at 47. Sagar’s combined
reply and opposition repeats some of these alleged
acts of harassment and adds four more: (9) Kirkland
contacted “users” directly without involving Sagar,
the requirements manager; (10) Sagar was
“removed” from a project and replaced by Lin; (11)
Sagar “was ignored” while “visiting [an] Austin
processing center ... in favor of Brady and
Kirkland;” and (12) Lin complained about Sagar.
Dkt. 112 at 39-41.
Sagar’s hostile work environment claim fails
for several reasons. First, “[d]espite the sheer
number of incidents of which [Sagar] complains,” his
claim “contains at least one glaring defect: none of
the allegations give rise to an inference of
discrimination by [the Department] based on [his]
age.” Bryant v. Brownlee, 265 F. Supp. 2d 52, 63
(D.D.C. 2003). Without some connection to his age,
none of these incidents can support a claim of agebased harassment under the ADEA. See Baloch, 550

App. 67

F.3d at 1196 (ADEA claim requires evidence that the
challenged action was taken “because of the
plaintiffs . . . age”). Not only has Sagar failed to
proffer any evidence that he suffered these alleged
indignities because of his age, much of his challenge
centers on the contention that Lin—who was 59
years old at the time—was favored over him.
He alleges that Lin was “pampered,” allowed to
attend meetings at HHS, encouraged to say negative
things about Sagar in exchange for favorable reviews
and rewards, and was substituted for Sagar on a
project. It is theoretically possible, to be sure, that
an employer might discriminate on the basis of age
in favor of a 59-year-old employee at the expense of a
63-year- old employee. But to make out such a claim,
the 6 3-year-old employee would need to identify
some evidence supporting that unlikely scenario.
Sagar has not done so. Indeed, Sagar himself
attributes the complained-of events to other causes:
“poor and unconventional management,” Dkt. 101 at
47, and Brady and Gianakos’ allegedly inexplicable
dislike of Sagar, Dkt. 112 at 41. Bad behavior,
however, “no matter how unjustified or egregious,
cannot support a claim of hostile work environment
unless there exists some linkage between the hostile
behavior and the plaintiffs membership in a
protected class.” Nairn v. Clinton, 626 F. Supp. 2d
63, 73 (D.D.C. 2009).
Second, even putting that flaw aside, Sagar’s
allegations of harassment do not rise to the level of
severe or pervasive “intimidation, ridicule, [or]
insult” necessary to state a hostile work
environment claim. Baloch, 550 F.3d at 1201. Sagar
was given an important role to play in developing
the Requirements Plan, and he attended multiple

App. 68

internal meetings. See Dkt. 101 at 37, 40. The fact
that he was not invited to attend meetings with
another agency; was “ignored” while visiting a
processing center; was not included in certain
discussions; was replaced on one assignment; and
did not have direct contact with certain “users” may
have caused Sagar frustration, may have made it
more difficult to do his job efficiently, and may have
been insulting.5 Hussain v. Nicholson, 435 F.3d 359,
366-67 (D.C. Cir. 2006). But none of those slights,
nor any similar conduct, was so severe and pervasive
that it “alter[ed] the conditions of [his] employment
and create [d] an abusive working environment.”
Meritor Sav. Bank, FSB v. Vinson, 477 U.S. 57, 67
(1986).

5 Sagar’s contention that Lin concocted criticisms of Sagar at
the behest of Brady and Gianakos in exchange for receiving an
outstanding ranking, recommendation for a reward, and
promotional consideration finds no support in the record.

Third, Sagar’s contention that he was denied
a transfer to another project does not support a
claim of pervasive harassment and, even if
considered as a discrete claim of discrimination, it
fares no better than his termination claim. The
undisputed evidence shows that, on October 3, 2011,
Brady emailed a group of Department employees
about an opportunity for a temporary detail as a
project manager to another team. See Dkt. 56-53.
Even though Sagar expressed interest, id., Brady
decided “not to submit [his] name” based on “the fact
that. . . they wanted a [GS-] 14 level”—and Sagar
was a GS-15—and “based on [Sagar’s] performance.”

App. 69

Dkt. 62-7 at 17 (Brady Dep. 62:3-18). The second of
these rationales mirrors the reason why Brady
recommended Sagar’s termination, and, for the
reasons given above, Sagar has failed to offer any
evidence that would permit a reasonable jury to find
that Brady’s rationale was pretextual. Moreover, as
discussed above, by the time Sagar expressed
interest in the detail in October 2011, Brady had
already decided to move forward with Sagar’s
termination. See Dkt. 104-8 at 3 (Brady Dep. 31:822) (Brady decided to fire Sagar “after the evaluation
meeting” on September 29, 2011). It is thus not at all
surprising that Brady did not submit Sagar’s name
for a new project; he had already decided that
Sagar’s employment should be terminated.
Fourth, and finally, Sagar’s contention that
he received threatening telephone calls does not
support his hostile work environment claim. The
Department, in an earlier round of briefing, noted
that Sagar had not alleged that the telephone calls
were “placed during his employment.” Dkt. 55 at 1213. Sagar responded by asserting in a brief that the
calls “started sometime in 2011 while Sagar was
still” employed by the Department. Dkt. 56 at 36.
But, although Sagar has submitted declarations
addressing other aspects of his claim that he
received threatening calls, he has not produced any
evidence—in the form of a declaration or otherwise—
supporting his assertion that the calls began in 2011.
Moreover, with one exception, Sagar offers no
evidence tying any of the calls he allegedly received
to anyone who he alleges harbored any age- based
animus against him or who played any role in his
termination. To the contrary, like a common
telephone scam, see Dkt. 104-18, the messages that

App. 70

Sagar had transcribed merely directed that he
return a call to someone from the “tax litigation
department... as soon as possible” to address a
“deficiency in [his] income tax” and to avoid “legal
action,” Dkt. 63-1 at 4.
Where Sagar does submit evidence purporting
to tie certain calls to someone who allegedly played a
role in his termination or harassment, the evidence
fails to support his claim. He avers, in particular,
that he received a call in December 2013 from a
“gentleman [who] gave his name as Jonathan Lin”—
the “same name as the employee who [was] used by
Front Line Managers” to concoct false allegations of
misconduct. Dkt. 101-2 at 3-4 (Fourth Sagar Decl. T|
20). Unlike some of the other calls that Sagar relies
upon, he does not offer a certified transcript of this
message and relies, instead, on his own notes. Those
notes assert that Sagar received a call, much like
those described above, from someone asserting that
“[t]here [was] a criminal complaint against [him]”
and requesting that he call the “Criminal
Investigation Department.” Dkt. 63 at 2. When
Sagar returned the call, “the gentleman” purportedly
indicated that “[h]is name was Jonathan Lin” and
asserted that there was a “criminal complaint
against” Sagar. Id.
In response, Sagar “[i]nquired about the nature of
the complaint and whether [the caller] could call. . .
back to confirm that he was calling from a
government] phone.” Id. The caller replied, ‘“[I]fyou
don’t want this call, just hang up and we w[ill] take
legal action.’” Id. Again, as the Department notes,
this call sounds much like the “sophisticated phone
scam targeting taxpayers” about which the IRS

App. 71

warned the public in October 2013. Dkt. 104-18. But,
even assuming— improbably—that the “gentleman”
with whom Sagar spoke was the same Jonathan Lin
who worked on the Premium Tax Credit project at
the IRS, the call, while bizarre, would not support an
ADEA hostile work environment claim for at least
two reasons: first, by the time Sagar received these
calls, he had not worked at the Department for over
two years, and, second, there is no evidence that the
call had anything to do with Sagar’s age.
As a result, even considering the evidence in
the light most favorable to Sagar, a reasonable jury
could not find in his favor on his claim for a hostile
work environment. See Mokhtar u. Kerry, 83 F.
Supp. 3d 49, 84-85 (D.D.C. 2015); Nguyen v. Mabus,
895 F. Supp. 2d 158, 191 (D.D.C. 2012). The Court
will, accordingly, grant the Department’s motion for
summary judgment on this claim as well.
CONCLUSION

The Court will GRANT the Department’s
motion for summary judgment, Dkt. 104, and will
DISMISS this case.
A separate Order will issue.

Is/ Randolph D. Moss
RANDOLPH D. MOSS
United States District Judge
Date: April 12, 2018

